<html>
<title> - IMPROVING ENERGY EFFICIENCY THROUGH TECHNOLOGY AND COMMUNICATIONS</title>
<body><pre>[Senate Hearing 111-668]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-668
 
   IMPROVING ENERGY EFFICIENCY THROUGH TECHNOLOGY AND COMMUNICATIONS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 23, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
56-413                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
                  Nick Rossi, Republican Chief Counsel
              Brian Hendricks, Republican General Counsel
                                 ------                                

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

JOHN F. KERRY, Massachusetts,        JOHN ENSIGN, Nevada, Ranking
    Chairman                         OLYMPIA J. SNOWE, Maine
DANIEL K. INOUYE, Hawaii             JIM DeMINT, South Carolina
BYRON L. DORGAN, North Dakota        JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
MARK WARNER, Virginia
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 23, 2010................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Brownback...................................     3
Statement of Senator Johanns.....................................    37
Statement of Senator Klobuchar...................................    42
Statement of Senator DeMint......................................    46

                               Witnesses

Hon. Aneesh Chopra, Chief Technology Officer and Associate 
  Director for Technology, Office of Science and Technology 
  Policy, Executive Office of the President of the United States.     3
    Prepared statement...........................................     5
Daniel R. Hesse, Chief Executive Officer, Sprint Nextel 
  Corporation....................................................     8
    Prepared statement...........................................    10
Adrian Tuck, Chief Executive Officer, Tendril Networks, Inc......    16
    Prepared statement...........................................    17
Lorie Wigle, Director, Eco Technology Program Office, Intel 
  Corporation and President, Climate Savers Computing Initiative 
  (CSCI).........................................................    21
    Prepared statement...........................................    23
Kathrin Winkler, Chief Sustainability Officer, EMC Corporation...    28
    Prepared statement...........................................    30


   IMPROVING ENERGY EFFICIENCY THROUGH TECHNOLOGY AND COMMUNICATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

                               U.S. Senate,
Subcommittee on Communications, Technology, and the 
                                          Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:59 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Hearing will come to order.
    Good morning, everybody. Thank you so much for being here 
and coming to order without anybody asking you to.
    I appreciate the fact that our Chief Technology Officer, 
Aneesh Chopra, has agreed to join into one panel. Normally we 
don't do that, but we have a competing Finance Committee 
hearing. And I'm very, very appreciative to you for doing that. 
And I thank the members of the Committee for being willing to 
do that.
    We're holding this hearing to--I just came, actually, from 
a session, hosted by the New Republic, where we were talking 
about energy policy and climate change and so forth. And I 
think the world is beginning to realize--if you look at what 
China, India, Germany, Brazil, South Korea, and other countries 
are doing, they are racing to the marketplace rapidly with new 
technologies, new approaches to energy savings, energy 
production, and economic growth, which comes out of it. And 
probably there has never been a more important time to do this, 
because energy independence has remained an elusive goal for 
the United States, as critical as it is, and as much as the 
American people want us to achieve it. And believe me, they do. 
It polls off the charts, in terms of a goal for Americans.
    The companies represented here today are, each of them, 
companies with vision. They're making so-called ``smart 
devices,'' which increase people's productivity. And they're 
making any number of different types of things--chips that 
allow machines to communicate with one another; they're 
involved in startups that are thinking about how you help 
homeowners to manage energy, save money as a result--and there 
are many ways to lower the household expenditure and retain 
money in the pockets of Americans.
    We're also going to hear, as I mentioned, not just from the 
companies, but from Aneesh Chopra, who is our Nation's Chief 
Technology Officer. And he is going to share with us what the 
government is doing to help innovators bring new technologies 
to the marketplace. And so, again, I appreciate everybody, sort 
of, joining into the one panel.
    We're also going to examine the innovation stemming from a 
hearing that the FCC held a few months ago at MIT on the 
relationship between broadband and smart grid technologies. 
Those who follow communications policy know that--as well as 
technology policy--know that the FCC is scheduled to release 
the national broadband plan next month. When I ran for 
President in 2004, I called for a universal, affordable, 
accessible broadband infrastructure. And I regret that it has 
taken us so long to, sort of--you know, it's now, what, 6 years 
later, and we're still, sort of, only talking about it.
    I very much look forward to evaluating the roadmap that the 
FCC is going to produce toward that end. And early indications 
are that they're going to set bold goals for itself, for the 
industry, for Congress. And I encourage the FCC to do so.
    Experts estimate that the information and communications 
technology industry is responsible for as much as 2.5 percent 
of the national carbon dioxide emissions in the United States, 
and that will grow as the ICT industry grows. But, the services 
that the industry provides, and the way that a lot of firms 
manage their own energy use, can help the other 98 percent of 
the economy dramatically reduce carbon emissions. And 
modernizing our infrastructure, getting broad operating 
standards, and establishing market incentives, are the keys to 
success for the country.
    So, I appreciate the panel.
    Mr. Chopra is the assistant to the President, the Chief 
Technology Officer in the White House, of Science and 
Technology Policy. He was named to the Government Technology 
Magazine's top 25 in their ``Doers, Dreamers, and Drivers'' 
issue in 2008. We like that. And doers are exactly what we need 
right now.
    So, congratulations, and welcome.
    I look forward, particularly, to hearing from him on how 
smart grid standards are going to accelerate the adoption of 
technologies that will allow us to maximize our efficient use 
of energy.
    Dan Hesse, is the CEO of Sprint. It's rare that we have the 
CEO of a major corporation testify at a subcommittee hearing, 
and I'm very grateful to him for doing that. I think it speaks 
volumes about his commitment to this vision and the issue. The 
measurable goals for carbon reduction that he is setting for 
his firm is exactly the kind of leadership that we need across 
the board. And he's proving that you can be environmentally 
sound and also do good business as you do it.
    In addition, we have Adrian Tuck, the CEO of a cutting-edge 
tech startup called Tendril; Kathrin Winkler, the CSO of EMC, a 
global information management business leader headquartered, 
I'm proud to say, in Massachusetts; and Lorie Wigle, the 
Director of Intel's Eco-Technology Program office.
    So, thank you, all of you, for joining us today. We're very 
appreciative.
    The Ranking Member is not here, I don't know if any of our 
other Senators have openings they wanted to make, or we just go 
right to the----
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. If I could, I'd like to welcome a 
Kansan, Mr. Hesse, the CEO of Sprint. I really appreciate him 
and the very dynamic, good, aggressive company, doing a great 
job and great leadership. I'm glad you're here, and I'm glad 
you're going to be participating. I look forward to what you 
have to say and what we can learn from the panel.
    The Chairman. Thank you, Senator.
    Senator Brownback. Thank you, Chairman.
    The Chairman. Mr. Chopra, if you'd begin. And we'll just 
run right across the panel.
    Thank you, sir.

 STATEMENT OF HON. ANEESH CHOPRA, CHIEF TECHNOLOGY OFFICER AND 
              ASSOCIATE DIRECTOR FOR TECHNOLOGY, 
 OFFICE OF SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF 
               THE PRESIDENT OF THE UNITED STATES

    Mr. Chopra. Thank you----
    The Chairman. If you could all summarize, without 
objection, your full testimonies will be placed in the record 
as if read in full, and that will give us more time to have a 
discussion. Thanks.
    Mr. Chopra. Thank you very much, Mr. Chairman, for the 
invitation--and Senators. It's an honor and a privilege to join 
you today to discuss the role of technology and energy 
efficiency.
    Last September, the President unveiled his strategy for 
American innovation, which was focused on sustainable growth 
and quality jobs. He noted in that presentation that in no area 
will innovation be more important than in the development of 
new ways to produce, use, and save energy; that the Nation that 
leads the clean energy economy will be the Nation that leads 
the global economy. In my capacity, as Chief Technology 
Officer, I'm focused on the power and potential of technology, 
data, and innovation to transform the Nation's economy and to 
improve the lives of everyday Americans. That means, frankly, 
an economy where energy use is cleaner and more economical.
    Today's hearing is focused on an important lever to 
modernize the electric grid, to make our homes and businesses 
more energy efficient. According to a recent report by the 
National Academies, aggressive efforts in the building, 
transportation, and industrial sectors could enable the United 
States, by the year 2030, to reduce energy use 30 percent below 
the level of the U.S. energy use in 1990 while saving consumers 
and businesses hard-earned money.
    To realize these benefits, I am focused, and will share 
today, three opportunities to accelerate progress in energy 
efficiency. Those three areas are smart grid technologies, to 
your point; open data systems that benefit consumers; and the 
work we're doing in research and development for next-
generation buildings.
    So, a word on each:
    First, on smart grid technologies. The Department of Energy 
Smart Grid Investment Grant Program funded by the Recovery Act 
is accelerating the deployment of smart meters and other 
components of an advanced electrical grid. NIST, the National 
Institute of Standards and Technology, is leading a public-
private effort to develop a core set of smart grid standards. 
The National Science Foundation supports leading-edge research 
in smart grid technology, primarily through their Engineering 
Research Center programs. An important goal of this effort is 
the widespread availability of energy saving choices for 
consumers that will increase reliability, reduce environmental 
emissions, and foster the growth of renewable energy.
    Related to that, today marks the opening of a new program 
to help us understand the role of standards in the topic of 
energy efficiency. On behalf of the President's Open Government 
Program, we are, today, launching a Smart Grid Forum, an online 
vehicle hosted at the National Institute of Standards and 
Technology website. The goal of the Smart Grid Forum is to 
engage all Americans in a conversation on how energy consumers 
can participate in the effort to spur innovation both in smart 
grid products and services.
    Very specifically, our goal is to encourage smart grid 
solutions that provide all consumers with the information and 
services they need to efficiently manage their energy 
consumption, that integrate well with existing or new 
information and entertainment systems, and that can be widely 
deployed at low cost. A robust, secure, and flexible 
architecture based on open standards is needed for information 
exchange between the home and the smart grid. These systems 
need to ensure cybersecurity while enabling broad participation 
among diverse consumers.
    Mr. Chairman, this smart grid forum, we believe, will help 
invite the American people to decide how and in what manner 
they can balance all of these goals. Our obvious intention is 
for everyone to participate.
    In addition, we are focused on next-generation research and 
development programs. In my capacity as the Chair of the 
National Science and Technology Council's Committee on 
Technology, I'm working very closely with about 16 Federal 
agencies to design the future, today. What does a ``net-zero'' 
building look like, and how might we learn from those research 
activities to commercialize them in real estate throughout the 
United States?
    And in that regard, I'm pleased to announce that, just a 
week ago, the Federal agencies associated with energy usage--
not just the Department of Energy, but the National Science 
Foundation and others--have joined forces in the first regional 
innovation cluster grant program--we call it E-RIC, the Energy 
Regional Innovation Cluster--of--making available over $130 
million over the next 5 years to create a regional research 
center of excellence that focuses on buildings' efficiencies, 
but looks at startup opportunities and areas in which we can 
unleash the value and the power of this information into the 
hands of the American consumer.
    In closing, Mr. Chairman, I'm pleased to report that the 
President has called on us to take action and leadership. While 
a number of these initiatives will take time to deliver the 
results, in signing the Executive Order 13514 on Federal 
sustainability, he's directed each Federal agency to achieve--
to present their plans and goals and milestones for a detailed 
implementation plan on driving energy efficiency. I'm pleased 
that a good component of that will be areas like telework, 
where people can use technology today to reduce their reliance 
on carbon emissions, with respect to car travel, and so forth. 
And we'll see more of that in the years to come.
    Again, thank you, Mr. Chairman, for the opportunity. I look 
forward to your questions.
    [The prepared statement of Mr. Chopra follows:]

Prepared Statement of Hon. Aneesh Chopra, Chief Technology Officer and 
  Associate Director for Technology, Office of Science and Technology 
     Policy, Executive Office of the President of the United States

    Chairman Kerry, Senator Ensign, and Members of the Committee, it is 
an honor to appear before you today to discuss the role of technology 
in advancing energy efficiency.
    In my capacity as Assistant to the President, Chief Technology 
Officer, and Associate Director for Technology in the Office of Science 
and Technology Policy, my mission is to harness the power and potential 
of technology, data, and innovation to transform the Nation's economy 
and to improve the lives of everyday Americans. The Administration 
envisions an economy in which jobs are more plentiful, American firms 
are more competitive, Americans are more safe and secure, and energy 
use is cleaner and more economical.
    In order to achieve our energy and environmental goals, we must 
fully leverage the commercially attractive energy efficiency 
opportunities that already exist while accelerating development and 
deployment of next-generation technologies. While the Nation's energy 
use per dollar of gross domestic product has been cut in half since 
1973--and about 70 percent of that improvement has come from gains in 
energy efficiency--much more progress is needed.
    Energy supplies are limited, energy demands continue to grow, and 
global emissions from fossil fuel combustion imperil the planet that we 
will leave to future generations. That's why the Recovery Act that we 
passed 1 year ago commits about $90 billion to clean energy. A large 
portion of this funding is being used to modernize the electric grid, 
to make our homes and businesses more energy efficient, and to double 
our capacity to generate renewable electricity. These investments not 
only contribute to economic recovery; they also lay a new foundation 
for lasting prosperity.
    Broad-based deployment of energy efficiency practices and 
technologies will yield great benefits to the Nation. According to a 
recent National Academies report, aggressive efforts in the buildings, 
transportation, and industrial sectors could enable the United States 
by 2030 to reduce its energy use by 30 percent--below the level of U.S. 
energy use in 1990--while saving money.
    To help realize these benefits, the Administration has stepped up 
its leadership on energy efficiency through high-level policy actions, 
public-private partnerships, and research initiatives to develop next-
generation efficiency technologies. In this context, I am focused on 
three opportunities to accelerate progress in energy efficiency: smart 
grid technologies, open data systems that benefit consumers, and 
research on next-generation buildings.

Smart Grid Technologies
    Modernization of the Nation's electric grid is a vital component of 
the President's comprehensive energy plan. The ``smart grid'' will help 
provide consumers with the information, automation, and tools they need 
to control and optimize energy use. The tools and services enabled by 
the smart grid will improve the reliability, security, and efficiency 
of the electric grid. Smart grid technologies can facilitate energy 
generation from clean energy supplies and enable more effective 
integration with the electricity delivery system of renewable energy 
sources, demand response resources, and plug-in electric vehicles.
    The Department of Energy (DOE) Smart Grid Investment Grant program, 
funded by the Recovery Act, is accelerating deployment of smart meters 
and other components of an advanced electric grid. The National 
Institute of Standards and Technology (NIST) is leading a public-
private effort to develop a core set of smart grid standards. The 
National Science Foundation supports leading edge research in smart 
grid technology primarily through their Engineering Research Centers 
Program. An important goal of our efforts on the smart grid is the 
widespread availability of energy-saving choices for consumers that 
will increase reliability, reduce environmental emissions, and foster 
the growth of renewable energy.

Open Government
    In December, OMB Director Peter Orszag published the President's 
Open Government Directive to hardwire accountability, access, and 
public participation into government operations, reflecting a set of 
recommendations that my office culled directly from the American people 
during the summer of 2009. We are working with the DOE, NIST, and other 
Federal agencies to apply these principles of openness and incentives 
for innovation to the arena of the smart grid.
    As one step in our efforts to increase the government's 
participation and collaboration with the public, today we are launching 
the Smart Grid Forum, a public on-line forum on the future of the smart 
grid and what it will mean for consumers, including how to encourage 
innovation in smart grid products and services.
    We seek to encourage smart grid solutions that provide all 
consumers with the information and services they need to efficiently 
manage their energy consumption, that integrate well with existing or 
new information and entertainment systems, and that can be widely 
deployed at low cost. A robust, secure, and flexible architecture based 
on open standards is needed for information exchange between the home 
and the smart grid. These systems need to ensure cyber security while 
enabling broad participation among diverse consumers. Through the Smart 
Grid Forum, we are inviting the public to provide input on how to 
achieve these goals most effectively. I encourage everyone to 
participate.

Buildings Energy Efficiency
    In the United States, buildings consume 40 percent of end-use 
energy and over 70 percent of electricity, while contributing nearly 40 
percent of carbon emissions. Energy consumption in the commercial 
buildings sector alone rose by 70 percent over the 25 year period 
ending in 2005 (largely because of the increase in commercial building 
stock over that time period). U.S. buildings contribute more than 9 
percent of world CO<INF>2</INF> emissions, more than the total 
emissions of the United Kingdom, France, and Japan combined. Clearly, 
buildings are essential to achieving our national energy and 
environmental goals.
    One of our efforts to accelerate technology's role in promoting 
energy efficiency is to develop net-zero energy buildings, which 
consume no more energy than they use from renewable sources. We also 
focus on building designs and technologies that can meet other 
sustainability objectives, such as using recycled building materials, 
implementing smart data center designs, reducing water use, or ensuring 
indoor occupant health and safety.
    I currently serve as the Co-Chair of the National Science and 
Technology Council (NSTC) Committee on Technology, which includes a 
Buildings Technology R&D Subcommittee. With sixteen Federal agencies 
represented, this group promotes the development and deployment of 
cost-effective net-zero energy building technologies, including 
sensors, software tools, and advanced heating, ventilation, and air 
conditioning technologies. The group collaborates with two major DOE 
initiatives--the Building Systems Innovation Hub and ARPA-E--on these 
and other research priorities. We are working with public and private 
stakeholders to integrate these technologies and principles into future 
building designs, investments, and codes and standards.
    We are committed to partnering with local and regional stakeholders 
to develop and deploy these technologies. On Feb. 12, seven Federal 
agencies issued a combined Funding Opportunity Announcement of up to 
$129.7 million over 5 years to create a regional research center. This 
Energy Regional Innovation Cluster (E-RIC), which includes the DOE 
Building Systems Innovation Hub as an integral component, will develop 
new building efficiency technologies, work with local partners to 
implement advanced technologies in area buildings, and promote regional 
growth. This is our first demonstration of collaboration to pursue 
economic growth through clusters. By bringing together synergistic 
Federal programs, we are proactively encouraging collaboration amongst 
stakeholders at the regional level to bring the benefits of these 
technologies to spur new business and job creation, and to align 
education and workforce training with new business opportunities that 
may spin out of the E-RIC.
    The National Science Foundation (NSF), with support from DOE and 
EPA, is investing as much as $20 million in an Fiscal Year Emerging 
Frontier and Research Innovation program to understand the fundamental 
science and engineering needed for next-generation energy and materials 
technologies for future building systems.
    Private-sector innovation, often spurred by public policy and 
incentives such as the cost-shared R&D grants provided by the DOE's 
Energy Efficiency and Renewable Energy programs, has led to major 
strides in energy-efficient and cost-effective technologies for 
lighting, heating, cooling, refrigeration, computing, and other basic 
services that drive energy demand in residential buildings and 
commercial facilities. Hundreds of commercially feasible and 
demonstrated technologies, some already available and others just 
beginning to enter the market, could, in total, lead to huge 
improvements in energy efficiency.
    As just one example, public and private collaborations have 
identified numerous cost-effective opportunities to improve the 
efficiency of IT data centers, which represent a small but rapidly 
growing portion of U.S. energy consumption. The Save Energy Now program 
at the DOE's Office of Energy Efficiency and Renewable Energy is one 
example of this collaboration, aiming to reduce energy use in U.S. data 
centers by 10 percent by 2011.

Federal Leadership
    The Administration has taken strong action to spur efficiency gains 
within Federal agencies. The Federal Government is the single largest 
user of energy in the Nation, representing 1.6 percent of U.S. total 
consumption and costing taxpayers about $25 billion in Fiscal Year 7. 
Of this amount, over $7 billion was spent on energy to operate the 
500,000 buildings that the Federal Government currently owns, operates, 
and leases in the United States.
    To ensure that the government leads by example and makes the best 
use of taxpayer dollars, last October President Obama issued Executive 
Order 13514 on Federal Sustainability, requiring each agency to 
establish goals, milestones, and a detailed implementation plan across 
a range of sustainability metrics. Subsequently, in January, the 
President announced that the Federal Government will reduce its 
greenhouse gas pollution from non-National security mission critical 
activities by 28 percent by 2020, yielding a projected $8 to $11 
billion in cumulative avoided energy costs through 2020. A significant 
portion of these reductions will be obtained through Federal building 
efficiency measures and on-site renewable energy. As part of the 
Executive Order implementation, each agency will be graded on how well 
it is meeting its performance targets. These annual ``scorecards'' will 
be publicly posted online.
    Data centers represent an area where there is significant 
opportunity to achieve energy savings. Over the past decade, we have 
seen a large increase in the number of Federal data centers. In 1998, 
there were 432 Federal data centers; today, there are 1,101. This 
growth has driven increases in the total power requirements and 
consumption of these facilities. According to DOE, in 2006, data 
centers accounted for 1.5 percent of all electricity use in the United 
States, double the corresponding amount in 2000. If current trends 
continue, future data center energy consumption will grow 
exponentially, increasing both the costs to the Federal Government and 
challenges to the reliability of electrical supplies.
    We have the opportunity to do better with existing technologies. As 
one example, the U.S. Postal Service eliminated over 88 percent of its 
physical servers--from 895 to 104--and reduced power consumption by 3.5 
million kilowatt hours. When I served as Virginia's Secretary of 
Technology, we undertook a similar effort--generating $12 million 
annually in savings as the result of a 35-percent reduction in energy 
use. To ensure that these savings can be achieved across the entire 
government, the Federal Chief Information Officer, Vivek Kundra, has 
undertaken a significant data center consolidation effort. Adoption of 
a cloud computing model--by which I mean, for purposes of today's 
discussion, providing useful online services through efficient, shared, 
and consolidated infrastructure--is a major part of this strategy.
    Another area where the Administration is looking to lead by example 
is in promoting telework. As the recent snow storms in Washington, DC 
demonstrated, the ability to telework can help keep the government 
functioning when Federal workers are unable to get to work. Telework is 
not only important during emergencies but also as a way to reduce 
energy consumption as employees depend less on modes of transportation 
powered by fossil fuels. Last year, the White House held an online 
forum seeking ways for the Federal Government to be more energy 
efficient; telework filled the online suggestion box. Under the 
leadership of Director John Berry, the Office of Personnel Management 
will be hosting a forum next month to examine ways for the government 
to incorporate telework more and to address technology and other 
challenges to telework.

Innovation Strategy
    The Federal Government also leads by investing in the building 
blocks that only the government can provide, setting an open and 
competitive environment for businesses and individuals to experiment 
and grow, and by providing extra catalysts to jumpstart innovation in 
sectors of national importance. In this way, we can harness the 
inherent ingenuity of the American people and a dynamic private sector 
to generate innovations.
    In September 2009, as part of his Strategy for American Innovation, 
the President called for a set of ``grand challenges'' to improve our 
quality of life and serve as the foundation for the jobs of future. 
Such challenges could include net-zero energy homes and solar cells as 
cheap as paint. We intend to fully harness the power and potential of 
technology and innovation to advance a set of challenges.
    Another critical component of innovation in energy efficiency is 
workforce development. Thus the Fiscal Year DOE budget includes $55 
million for the RE-ENERGYSE program--or REgaining our ENERGY Science 
and Engineering Edge--a partnership with the NSF for clean energy 
education and training. These opportunities include undergraduate and 
graduate scholarships and fellowships, internships, and post-doctoral 
opportunities as well as technical training at community colleges, and 
new K-12 education and outreach efforts.
    In conclusion, under President Obama's leadership in calling for a 
government that works, we are focused on the transformative power of 
technology and innovation to deliver economic and environmental 
benefits through improved energy efficiency in buildings and by 
enabling smarter use of energy by consumers.
    I welcome any questions that the Committee may have.

    The Chairman. Thank you, Mr. Chopra, appreciate it.
    Mr. Hesse.

 STATEMENT OF DANIEL R. HESSE, CHIEF EXECUTIVE OFFICER, SPRINT 
                       NEXTEL CORPORATION

    Mr. Hesse. Good morning, Chairman Kerry and Members of the 
Subcommittee.
    I'm Dan Hesse, the CEO of Sprint Nextel Corporation. Thanks 
for the opportunity to testify about how the progressive 
environmental path Sprint is forging is challenging the 
technology industry to create a greener, more sustainable 
future.
    Our country has been transformed by numerous periods of 
historic and evolutionary change, from the Industrial 
Revolution to the dot-com bubble in the age of the Internet. 
Today, we are in the midst of a new green era. Today's U.S. 
consumer and members of this legislative body are sending a 
call to action to corporations to act in the best interests of 
our people and our planet. Sprint is proud to embrace this 
opportunity as we make environmental responsibility a 
cornerstone of our company.
    In my capacity as the Sprint CEO, let me take this 
opportunity to highlight just how seriously Sprint is heeding 
the call. In 2008 Sprint established, and publicly announced, a 
set of 10-year environmental goals, including securing 10 
percent of Sprint's commercial energy use from use from 
renewable sources by 2017; reducing greenhouse gas emission by 
15 percent; achieving a wireless device collection rate of 90 
percent, as compared to device sales; ensuring that at least 90 
percent, based upon spend, of all Sprint suppliers comply with 
environmental standards; reusing or recycling 95 percent of 
Sprint's network NIT waste.
    We are making significant progress toward achieving our 
goals. Sprint achieved a 6.8-percent greenhouse gas reduction 
in 2008, and we expect a further improvement when we see our 
results this year, for 2009.
    Sprint was awarded a $7.3-million grant from the U.S. 
Department of Energy as part of the American Recovery and 
Reinvestment Act funding for fuel cell technology. This grant 
will allow Sprint to extend the unassisted runtime from 15 
hours currently, in deployed fuel cells at cell sites, to 72 
hours. Sprint possesses, or has filed, 47 patents in green 
technology areas, and we have 15 issued patents for hydrogen 
fuel cell technologies which emit no greenhouse gases.
    Sprint expanded its commitment to green power use, 
announcing an agreement, with Kansas City Power and Light, that 
facilitated the building of a local Kansas-based wind farm. As 
part of this agreement, Sprint agreed to purchase, from Kansas 
City Power and Light, 87 million kilowatt hours per year, 
providing 80 percent of the power needed to run our 200-acre 
Overland Park, Kansas, headquarters. Sprint recently partnered 
with Samsung to launch the Reclaim, which you have here, an 
eco-friendly, full-featured wireless device that is 80-percent 
recyclable, with components made partly from biodegradable 
plastic sourced from corn. The Reclaim has been a market 
success and is the most technologically advanced eco-friendly 
device currently available in the U.S.
    As a result, over the last year, Sprint has earned numerous 
industry awards and accolades for our leadership in the green 
space. Sprint ranked 15th overall, and was the only telecom 
company listed in a top 100 in Newsweek's green rankings. 
Sprint also scored highest among U.S.-based wireless companies 
on the Carbon Disclosure Project's 2009 Global 500 Report on 
Carbon Disclosure.
    At Sprint, the innovations we pursue and the new 
environmental programs in which we engage are both transparent 
and accountable. Experience has taught us that collective 
action, working cooperatively with handset manufacturers, 
nongovernmental organizations, and government agencies, helps 
to quickly and broadly establish common standards for better 
environmental performance. Today, I'm proud to announce that 
Sprint is the first U.S. wireless carrier to establish a set of 
green design criteria for consumer devices.
    Moving forward, every handset vendor who manufactures 
handsets to operate on Sprint's networks must produce handsets 
that meet or exceed Sprint's new design--green design criteria 
and specs. The green design criteria and specifications 
supports Sprint's product development vision, which is to 
provide devices and accessories for our customers that are made 
of sustainable materials; manufactured and packaged 
sustainably; free of potentially hazardous materials; highly 
energy efficient, or even self-charging; compatible with 
interoperable accessories; and fully and easily recyclable.
    Working in partnership with our handset manufacturers, 
Sprint has developed an industry-first environmental scorecard 
to bolster progress toward Sprint's green design 
specifications. The criteria in the scorecard better enables 
Sprint and our vendors to gauge the degree to which each 
handset manufacturer complies with our environmental standards. 
These handset manufacturers include Samsung, HTC, LG, Motorola, 
Palm, RIM, and Sanyo. Handsets will be measured according to 
the following scorecard categories: environmentally sensitive 
materials, end-of-life management, sustainable packaging, 
energy efficiency, and innovation.
    We hope that by collaborating proactively with our handset 
vendors, we will encourage the entire wireless industry to 
develop new, innovative, greener handsets for consumers. 
Designing greener handsets is crucial for our industry and is 
also part of our larger goal to ensure that wireless devices do 
not end up in landfills. According to recent statistics from 
the EPA, only 10 percent of cell phones are recycled each year 
in the U.S. Americans annually dispose of 140 million old or 
unused cell phones and send 65,000 tons of e-waste to 
landfills. While 40 to 50 percent of Americans recycle common 
materials, the truth about e-cycling, or the reuse of--or 
recycling of electronic goods is that many consumers just 
don't.
    The implication of low e-cycling rates is significant. Many 
of these electronics contain valuable metals, such as gold and 
silver, that could be recycled into jewelry, electronics, lawn 
furniture, car parts, plastic containers, and more. A great 
example of an innovative use of these reclaimed materials from 
electronics can be seen in Vancouver, where this year's 
athletes are receiving gold, silver, and bronze Olympic medals 
that contain materials reclaimed from end-of-life electronics.
    A recent ABI research report found that, of 1,000 people 
surveyed, 98 percent were prepared to return handsets to an 
operator store, to a charity, to a refurbishing company, or to 
the manufacturer, but only in return for some compensation--
either cash, store credit, or a tax deduction.
    Sprint has been at the forefront of recycling efforts in 
the wireless industry. In 2008, we made a public commitment to 
achieve a wireless reuse and recycling rate of 90 percent, as 
compared to our device sales. Our current wireless rate, at the 
end of 2009, was just over 40 percent, well ahead of the 
industry average. We accept all phones for recycling or reuse, 
regardless of which wireless carrier or who the customer may 
have bought the phone from. Since 2001, Sprint has collected 
more than 19 million devices for wireless reuse and recycling.
    Today, we are announcing the launch of a new vastly 
expanded wireless handset buyback program that offers a 
financial incentive in the form of an instant account credit to 
current and new Sprint customers, who can turn in up to three 
eligible wireless devices. Sprint's new expanded buyback 
program accepts all eligible wireless devices, regardless of 
the manufacturer or the carrier. Through this new buyback 
program, currently--current or new Sprint customers can go to 
one of more than 1,000 Sprint-owned retail stores nationwide, 
or go online, to convert any eligible old Sprint, Verizon, 
AT&T, or T-Mobil network phone into an instant account credit.
    Thank you for holding this hearing today to highlight how 
the U.S. wireless industry can take our environmental 
responsibilities even more seriously. And I'm happy to answer 
any questions you may have later.
    Thank you.
    [The prepared statement of Mr. Hesse follows:]

    Prepared Statement of Daniel R. Hesse, Chief Executive Officer, 
                       Sprint Nextel Corporation

Introduction
    Good Morning, Chairman Kerry, Ranking Member Ensign and members of 
the Subcommittee. I am Dan Hesse, CEO of Sprint Nextel Corporation. 
Thank you for the opportunity to testify about how the progressive 
environmental path Sprint is forging is challenging the technology 
industry to create a greener, more sustainable future.
    Our country has been transformed by numerous periods of historic 
and evolutionary change--from the Industrial Revolution to the dot-com 
bubble and the Age of the Internet. Today, we are in the midst of a new 
``green'' era. Today's U.S. consumer and the members of this 
legislative body are sending a ``call to action'' to corporations to 
act in the best interests of our people and our planet. Sprint is proud 
to embrace this opportunity as we make environmental responsibility a 
cornerstone of our company.
    As a result, over the last year, Sprint has received numerous 
industry awards and accolades; however, perhaps the one I am most proud 
of is our recent #15 ranking on Newsweek's 2009 Green Rankings of top 
500 U.S. Corporations, the only U.S. telecom company listed in the top 
100. Accolades such as Newsweek's Green Rankings are important; 
however, organizations need to continue to achieve tangible 
environmental progress toward measurable sustainability objectives. 
Research supports that the best business strategies effectively target 
the environmentally conscious consumer.
    In my capacity as Sprint's CEO and the Chair of Sprint's Corporate 
Responsibility Steering Committee, let me take this opportunity to 
highlight just how seriously Sprint is heeding this call:
Sprint's Corporate Sustainability Initiatives
    In 2008, Sprint established and publicly announced a set of 10-year 
environmental goals, including:

  <bullet> Securing 10 percent of Sprint's commercial energy use from 
        renewable sources by 2017.

  <bullet> Reducing greenhouse gas emission by 15 percent by 2017.

  <bullet> Achieving a wireless device collection rate of 90 percent as 
        compared to device sales by 2017.

  <bullet> Ensuring that at least 90 percent, based on money Sprint 
        spends, of all Sprint suppliers, comply with environmental 
        standards.

  <bullet> Reusing or recycling 95 percent of Sprint's Network and 
        Information Technology (IT) e-waste.

    Sprint is committed to the belief that we all share in the 
responsibility to conduct our businesses in a socially and 
environmentally responsible manner. We base this on the premise that a 
company is much more than the products and services it sells; the 
effect a company has on the environment, the people and the communities 
it serves reflects a company's dedication to being not only a good 
business, but to being a good corporate citizen.

Renewable Energy Use
    Sprint leads the wireless industry within the U.S. in terms of 
actual renewable energy use by the corporation. Sprint's green-energy 
initiatives include wind, solar, hydrogen and geothermal power. Sprint 
began participating and promoting the testing of wind energy in 2004 
with the purchase of Green-e wind energy certificates for a building on 
the Sprint World Headquarters Campus in Overland Park, Kansas. In 2 
years, Sprint prevented approximately 1,000 tons of carbon dioxide from 
entering the atmosphere with these Green-e wind energy certificate 
purchases.
    Sprint expanded its commitment to green-power use, announcing an 
agreement with Kansas City Power & Light (KCP&L) that facilitated the 
building of the Spearville, KS Wind Farm. As part of that agreement, 
Sprint agreed to purchase 87M kilowatt hours per year for its 200-acre 
Overland Park, KS, headquarters campus from KCP&L via the Spearville, 
KS wind farm. In 2008, this accounted for 80 percent of Sprint's campus 
energy needs. This purchase provided a reduction of 87,519 metric tons 
of C02 equivalents in 2008 and is the equivalent of:

  <bullet> Taking 16,029 passenger cars off the road for one year,

  <bullet> Producing 203,533 fewer barrels of oil a year,

  <bullet> The electricity used in 12,139 households each year, or

  <bullet> Preserving 610 acres of forest.

    Sprint plans to expand its use of green-power and currently ranks 
in the top 25 purchasers of green-power in EPA's Green Power 
Partnership Fortune 500 Registry.

Energy Efficiency and Alternative Energy Use to Power Sprint's Wireless 
        Network
    Sprint's network consumes approximately 80 percent of its total 
corporate-energy use. With such a significant percentage, our network 
is our biggest priority in terms of finding energy improvement 
opportunities--both through energy efficiency and deployment of 
renewable-energy resources. Sprint has a partnership with the 
Department of Energy to conduct alternative-energy research and 
currently works with two national laboratories--Sandia in Albuquerque, 
New Mexico, and National Renewable Energy Lab (NREL) in Golden, 
Colorado. Their projects include energy storage and photovoltaic-panel 
research.
    In an effort to produce green backup power during commercial power 
outages, Sprint has already deployed more than 250 hydrogen fuel cells 
at cell sites, with more installations planned. Sprint is also using 
solar-powered energy at cell sites in California and New York. The 
photovoltaic-panels capture solar energy and power the site using 
sunlight during the day, then switch back to commercial utility power 
at night. In addition, Sprint is exploring geothermal systems as a way 
to reduce electricity use by improving cooling efficiency and improving 
reliability by avoiding high-heat equipment shutdowns. In these 
systems, the heat from a cell site is transferred to a heat exchange 
system and cooled through wells drilled in the ground.
    In April 2007, Sprint installed a small wind turbine on its 
Overland Park, KS campus to test the use of wind as primary power for 
cell sites. The turbine was the first of its kind in the community and 
continues to provide excellent data for Sprint's energy researchers. It 
is also iconic of Sprint's commitment to alternative energy.
    Sprint's most exciting new achievement on green network energy is 
its award of a $7.3 million United States Department of Energy grant 
for the expansion of hydrogen fuel cell deployment. Sprint, already a 
leader in fuel cells, will use the grant funding to expand its hydrogen 
fuel cell program at cell sites throughout the United States--creating 
72 hours of additional network resiliency, especially critical during 
emergencies and natural disasters. As part of the grant, Sprint will 
work with hydrogen fuel cell manufacturers, tank providers and hydrogen 
suppliers to extend the unassisted run-time to 72 hours (57 hours more 
than the typical amount currently available). Sprint's innovative work 
to extend the run-time of hydrogen fuel cells will benefit any industry 
with a need for longer and cleaner back-up power.
    Sprint possesses or has filed for 47 patents in green technology 
areas, and we have 15 issued patents in hydrogen fuel cell 
technologies.

Greenhouse Emissions
    Sprint understands that greenhouse gas is a critical issue and that 
reducing greenhouse gas (greenhouse gas emissions) is an important 
goal. As a large corporation with thousands of locations throughout the 
United States, Sprint has a role to play in the reduction of harmful 
greenhouse gas emissions, and is actively engaged in making a 
difference. Sprint has committed to absolutely reduce its greenhouse 
gas emissions by 15 percent by 2017 and to increase its use of 
renewable energy to 10 percent by 2017. The majority of Sprint's 
greenhouse gas emissions come from energy use in Sprint's network and 
facilities. Sprint has been actively working to reduce its energy 
impact for the past several years, as evidenced by our large purchases 
of renewable energy, investments in alternative-energy research, and 
development of an energy-conservation program.

  <bullet> Sprint was the first telecommunications carrier to join the 
        EPA Climate Leaders Program in 2007, and was recognized for our 
        goal to absolutely reduce greenhouse gas emissions 15 percent 
        by 2017. Sprint is the only carrier participating in the EPA 
        Climate Leaders Program and the only one to have published an 
        absolute greenhouse gas emissions reduction goal.

  <bullet> Sprint achieved a 6.8 percent greenhouse gas emission 
        reduction in 2008 and expects further improvement when we 
        finalize the 2009 results.

  <bullet> Sprint also participates in the Carbon Disclosure Project 
        (CDP) and received the highest ranking among wireless providers 
        in 2009 for its carbon disclosure efforts. CDP is a non-profit 
        organization, led by institutional investors in partnership 
        with government and non-government organizations (NGO's).

The Greening of Sprint Facilities and Retail Store Locations
    Sprint's 200-acre Overland Park, Kansas, headquarters campus is one 
of the most environmentally responsible campuses in the country. It was 
designed with the environment and employees in mind and is a source of 
pride for both campus workers and the surrounding community. Some of 
the eco-friendly highlights include:

  <bullet> Capture of site run-off water to use for landscape 
        irrigation (no municipal water is used).

  <bullet> Restoration of wetlands and natural landscape.

  <bullet> Plantings of more than 6,000 trees; use of landscaping for 
        shade.

  <bullet> Dedicating 60 percent of the campus to green space.

  <bullet> Regional extraction of 81 percent of campus construction 
        materials, reducing transportation emissions.

  <bullet> Use of People for the Ethical Treatment of Animals (PETA)-
        certified border-collie program for migratory-bird control.

  <bullet> A comprehensive composting program that takes food waste and 
        other compostable-waste, such as cardboard, and turns it into 
        useful by-products.

  <bullet> Use of solar power for signage.

  <bullet> Preferred parking for drivers of hybrids or carpoolers to 
        encourage reduction of employee greenhouse gas emissions.

  <bullet> A ``Smart Commute'' program to help employees find and use 
        alternative transportation options.

    Sprint received its first Leadership in Energy and Environmental 
Design (LEED) certification from the United States Green Building 
Council (USGBC) for new construction in April 2005, for a building 
(6480 Sprint Parkway) at our headquarters campus in Overland Park, KS. 
Sprint received its second LEED certification in mid-2009 through the 
LEED Retail pilot project for a Sprint retail store in the San 
Francisco, California area.
    All new and refurbished Sprint retail stores will utilize numerous 
sustainable design elements consistent with LEED design standards that 
will reduce the carbon footprint of each store by about 19,000 pounds 
of carbon dioxide annually.
    All Sprint retail stores feature a dedicated green section to 
highlight green products such as the eco-friendly Samsung Reclaim 
<SUP>TM</SUP>, solar chargers and cell phone carrying cases made from 
recycled plastic water bottles. Sprint's eco-charger options include 
the All-In-One Vehicle and Wall Charger and the SOLIO <SUP>TM</SUP> 
Mono Hybrid Charger. The All-In-One charger offers users the benefit of 
being an all-in-one car and home/office charger. It also features an 
inline USB port that allows two devices to be charged simultaneously 
and operates within EPA's Energy Star guidelines. The SOLIO 
<SUP>TM</SUP> Mono Hybrid Charger allows mobile-phone users to charge 
their device from the sun or electrical socket allowing customers to 
recharge their mobile phone anytime, virtually anywhere. Sprint's carry 
case solutions include two from Nite Ize <SUP>TM</SUP>, made from 100 
percent recycled plastic water bottles and two universal cases made 
from cotton and linen.

The Greening of Sprint's Accessory Packaging
    In November 2009, Sprint expanded its responsible product efforts 
by launching redesigned and even more environmentally responsible 
packaging for its entire accessory line. The new designs are smaller, 
fully recyclable, free of PVC, and include recycled content. Sprint 
estimates that the redesigned accessory packaging will save 647 tons of 
waste annually and reduce packaging costs by 35 percent or $2.1 million 
annually. Highlights of the new accessory packaging include:

  <bullet> Overall packaging dimensions reduced by 20 to 40 percent.

  <bullet> Polyvinyl chloride (PVC) clamshell eliminated and replaced 
        with Polyethylene terephthalate (PET 1), a more recyclable and 
        environmentally friendly material that includes 30 percent 
        recycled content.

  <bullet> Soy- and vegetable-based inks replace petroleum-based ink, 
        exceeding the American Soybean Association SoySeal Standards 
        and reducing the level of volatile organic compounds (VOCs).

  <bullet> Paperboard is Forest Stewardship Council (FSC) certified--
        ensuring that the paper travels from an FSC-certified forest to 
        a paper manufacturer, merchant and printer, all of whom have 
        FSC ``chain-of-custody'' certification. The process promotes 
        conservation and responsible management of forests. The 
        paperboard includes 40 percent pre-consumer waste content and 
        10 percent post-consumer waste content.

Eco-Conscious Consumer Solutions
    One of the benefits of being a communications solutions provider is 
that Sprint is part of an incredible societal shift toward smart-
mobility. Sprint customers use their wireless devices day-in and day-
out to communicate remotely with their friends and family, to send 
pictures, conduct on-line banking, purchase items remotely, find the 
fastest route to the doctor's office, and even find out where they can 
recycle their glass bottles.
    Sprint's wireless devices can replace alarm clocks, calculators, 
calendars, note pads, voice recorders, cameras and more. In the 
sustainability circle, this is called dematerialization, where one is 
able to eliminate material goods with virtual ones. Sprint hopes to 
help customers realize the environmental opportunities their devices 
offer and intends to provide specific solutions to enable a greener 
lifestyle.
    One of the simplest environmentally responsible solutions Sprint 
offers its customers is eBilling. Sprint eBill Online Billing 
eliminates customers' paper bills and thus helps the environment and 
provides convenient access to customer invoices. Sprint offers 
consumers a service credit for signing up and staying with eBill. 
Millions of Sprint customers have already selected this option and 
avoided the use of an estimated 2 million pounds of paper and emitting 
27 million pounds of greenhouse gases.
    Sprint has expanded its eco-conscious offerings to include 
environmentally-themed ringers. In October 2009, Sprint announced the 
release of downloadable bird-call ringtones in association with 
National Audubon Society. Customers can choose from among 28 ringtones 
include the Field Sparrow, Red-bellied Woodpecker and Black-capped 
Chickadee. Sprint and the National Audubon Society believe the bird 
song ringtones will help raise awareness of Audubon's mission to 
protect and conserve birds and their natural habitats. These ringtones 
are part of an official licensing program of the National Audubon 
Society from which Audubon will receive royalties.

Sprint's Green IT Efforts
    Green Information Technology (IT) is typically defined as the 
efficient design and use of computing resources. It includes using 
environmentally-friendly hardware and software, and deploying options 
such as virtualization, power management and recycling practices. 
Sprint is committed to being a green IT leader, and Sprint's efforts 
were recognized in September 2008 at Computerworld's Green IT Symposium 
where Sprint was named a top-five finalist for increasing ``green IT'' 
by reducing IT complexity. This recognition was based on Sprint's 
efforts to simplify its complex IT environment by identifying, 
consolidating and removing redundant or unused applications and their 
supporting infrastructures, and by simplifying the hardware and 
software footprint in Sprint's data centers.
    Over a 20-month period, Sprint has significantly reduced its IT-
based power consumption by retiring more than 3,850 servers. Not only 
did this improve energy efficiency, it reduced greenhouse gas emissions 
by 20,355 metric tons, which is the equivalent of removing more than 
3,200 cars from the road.
    Sprint has also transitioned to more energy-efficient servers and 
storage, has consolidated several of its data centers, significantly 
reduced the applications that are in use and implemented a much simpler 
hardware and software IT plan that incorporates virtualization and 
other green IT options.

Two New Environmental Initiatives from Sprint
    At Sprint, the innovations we pursue and the new environmental 
programs in which we engage are both transparent and accountable. While 
recognition is inspiring, what counts most is tangible environmental 
progress. It is Sprint's hope to change norms so that what we define as 
``green'' today is ``average'' tomorrow. Experience has taught us that 
collective action--working cooperatively with handset manufacturers, 
non-governmental organizations and government agencies--helps to 
quickly and broadly establish common standards for better environmental 
performance.
    Today I am proud to announce that Sprint is the first U.S. wireless 
carrier to establish a set of green design criteria for consumer 
devices. Moving forward, every handset vendor who manufactures handsets 
that operate on Sprint's networks must produce handsets that meet or 
exceed Sprint's new green design criteria and specifications. The green 
design criteria and specifications support Sprint's product development 
vision, which is to provide devices and accessories for our customers 
that are:

  <bullet> Made of sustainable materials

  <bullet> Manufactured and packaged sustainably

  <bullet> Free of potentially hazardous materials

  <bullet> Highly energy-efficient or even self-charging

  <bullet> Compatible with interoperable accessories, and

  <bullet> Fully and easily recyclable

    Working in partnership with our handset manufactures, Sprint has 
developed an industry-first environmental ``scorecard'' to bolster 
progress toward Sprint's green design specifications. The criteria in 
the scorecard better enable Sprint and our vendors to gauge the degree 
to which each handset manufactured complies with our environmental 
standards. These handset manufactures include: Samsung, HTC, LG, 
Motorola, Palm, RIM and Sanyo. Handsets will be measured according to 
the following scorecard categories:

  <bullet> Environmentally Sensitive Materials--to improve the removal 
        of environmentally sensitive materials such as Polyvinyl 
        Chloride (PVC), Brominated Fire Retardants (BFR) Phthalates and 
        Beryllium. This category also includes compliance with the 
        European Union's Reduction of Hazardous Substances (RoHS) 
        standards.

  <bullet> End of Life Management--to increase the average 
        recyclability rate and the use of recycled plastics and other 
        environmentally friendly parts.

  <bullet> Sustainable Packaging--to reduce a product's environmental-
        footprint by eliminating waste and using recycled or eco-
        friendly materials.

  <bullet> Energy Efficiency--to improve the energy efficiency and 
        reduce the overall consumption of energy by the handset and 
        charger.

  <bullet> Innovation--to raise the bar with new product innovations.

    Sprint hopes by collaborating proactively with our handset vendors, 
we will encourage the entire wireless industry to develop new, 
innovative, greener handsets for all U.S. consumers.

Wireless Recycling
    Designing greener handsets is crucial for our industry and is also 
part of our larger goal to ensure that wireless devices do not end up 
in landfills. According to recent statistics from the Environmental 
Protection Agency (EPA) only 10 percent of cell phones are recycled 
each year in the U.S. Americans annually dispose of 140 million old or 
unused cell phones and send 65,000 tons of e-waste to landfills. While 
40 to 50 percent of Americans recycle paper and other common materials 
regularly, the truth about e-cycling, which is the reuse or recycling 
of electronics, is that many U.S. consumers don't.
    The implication of low e-cycling rates is significant. Many of 
these electronics contain valuable metals--such as gold and silver that 
could be recycled into jewelry, electronics, lawn furniture, car parts, 
shingles, plastic containers and more. A great example of an innovative 
use of these reclaimed materials from electronics can be seen in 
Vancouver, Canada where this year's athletes are receiving Gold, Silver 
and Bronze Olympic medals that contain materials reclaimed from end-of-
life electronics. A recent ABI Research Report found that of 1,000 
people surveyed, 98 percent were prepared to return handsets to an 
operator's store, to a charity, to a refurbishing company or to the 
manufacturer--but only in return for some compensation; either cash, 
store credit, or a tax deduction.
    Sprint has been at the forefront of recycling efforts in the 
wireless industry. In 2008, we made a public commitment to achieve a 
wireless reuse and recycling rate of 90 percent as compared to our 
device sales. Our current wireless reuse and recycling rate at the end 
of 2009 was just over 40 percent, well ahead of the industry average. 
Since 2001, Sprint has collected more than 19 million devices for 
wireless reuse and recycling.
    Today we are announcing the launch of a new, vastly expanded 
wireless handset buyback program that offers a financial incentive, in 
the form of instant account credit, to current and new Sprint customers 
who turn in up to three eligible wireless devices. Sprint's new, 
expanded Buyback program now accepts all eligible wireless devices, 
regardless of manufacturer or carrier. Through this new Buyback 
program, current or new Sprint customers can go to one of the more than 
1,000 participating Sprint-owned retail stores nationwide or go online 
to www.sprint.com/recycle to convert any eligible old Sprint, Verizon 
Wireless, AT&T or T-Mobile network phone into an instant account 
credit.

Conclusion
    Chairman Kerry, Senator Ensign and members of the Subcommittee, 
thank you for holding this hearing today to highlight how the U.S. 
wireless industry can take our environmental responsibility even more 
seriously. Sprint is committed, for the long-haul, to ``green'' our 
business operations, promote the design of more eco-friendly handsets, 
increase wireless industry recycling rates, and remain a leader in our 
industry. In partnership with our handset manufactures and other 
allies, Sprint will continue to work to introduce greener handsets 
similar to the Samsung Reclaim<SUP>TM</SUP>, and to educate our 
customers about how they can make ``greener,'' more sustainable choices 
when it comes to handset purchases and end-of-life device management.
    I am happy to answer any questions you may have and Sprint looks 
forward to working with you and your staff on these mutual goals in the 
coming year.

    The Chairman. Thank you very much, Mr. Hesse.
    Mr. Tuck.

  STATEMENT OF ADRIAN TUCK, CHIEF EXECUTIVE OFFICER, TENDRIL 
                         NETWORKS, INC.

    Mr. Tuck. Good morning. My name is Adrian Tuck. I'm the CEO 
of a smart grid technology company based in Boulder, Colorado, 
called Tendril.
    As a newly minted American citizen, it's an honor to be 
asked to participate in however small a way in the setting of 
Federal policy, so I thank you all for the opportunity to 
testify this morning.
    Tendril's sole reason for being is to provide the devices 
and software that allow consumers and utilities to manage their 
energy consumption. Our platform works by linking residential 
energy customers with utilities, and we do so by providing 
customers with simple-to-use devices, such as smart thermostats 
and home energy monitors, that allow consumers to manage their 
energy use. Numerous studies have shown that this kind of 
energy awareness prompts consumers to reduce their energy 
consumption.
    Our technology communicates with the home in two ways. 
First, it can utilize new two-way smart meters, as being 
deployed by utilities in many States. But, second, it can also 
utilize commercial broadband networks and work with the 
approximately 60 million American households equipped with 
drive-by meters that chirp out a one-way signal of the meter's 
read.
    In this setting, we use the broadband capability and the 
Internet to create a two way communication link, making the 
smart grid come alive by using meters that are in the field 
today, and broadband technology that's well understood. We 
found this approach to be viewed favorably by many State 
regulators, who are responsible for identifying cost-effective 
solutions.
    Using a platform like Tendril's, consumers benefit by 
consuming less energy, saving money, and emitting less carbon 
dioxide. Utilities are better able to optimize loads on the 
grid and plan for the future by accommodating renewable 
generation, electric vehicles, and smart appliances. Our 
studies show that for every 1 million Tendril equipped homes, 
we can reduce carbon emissions by over 200,000 tons and save 
consumers over $75 million annually.
    Like you, sir, we believe that the transformation of the 
energy economy will be every bit as great as the transformation 
of the information and communications economy we've witnessed 
over the last 20 years. We see similar sustained wealth and job 
creation opportunities for the Nation if we seize the 
initiative. We also humbly believe that Google-sized businesses 
will emerge in this transition, and we're hoping, and working 
hard, to make Tendril one of them.
    In our small way, we've contributed to job creation. We've 
added approximately 100 well-paid jobs in the last 12 months, 
and plan to add several hundred more in the years ahead. 
Indirectly, our systems will support tens of thousands of new 
and retrained jobs as we deploy.
    I'd like to offer three observations for the Subcommittee's 
consideration:
    First, realtime energy information is key to driving energy 
savings in the home. Today, there's no consistent policy 
regarding whether and how consumers can see how much energy 
they're using in realtime. Three States--Pennsylvania, Texas, 
and California--stand out for their decisions to guarantee 
consumers the right to use energy--or, the right to see their 
energy so they can take action. Some of my own employees 
complain, in Colorado, that we have smart meters on their 
homes, but there's no policy from Congress, the State 
legislature, or the Public Utility Commission to give them the 
right to use that information.
    Federal policy--a consumer's right to know--can begin to 
correct that oversight. Only with realtime information can we 
inform, not just how, but when we use energy. I firmly believe 
that the first step to Federal coordination is to establish 
clear policies to ensure consumers and entrepreneurs have 
access to energy data.
    Second, the biggest barriers to innovation are not actually 
technical, but economic. Much work is underway, led by NIST, to 
adopt standards that enable communication between energy 
providers and consumers. But, most utilities have little 
incentive to sell you or me less energy, and in most States, we 
don't have a choice of energy supply. We think Federal 
legislation can establish greater coordination and give State 
regulators more abilities to include national energy priorities 
within their economic analysis.
    Third, like the Information and Communications Revolution, 
the ultimate driver of change will be the consumer. We, along 
with partners, such as Best Buy and Intel, are offering 
compelling solutions to consumers as part of utility programs 
and where utilities are slow to move without them. We would 
like to see a consumer rebate program established that would 
accelerate the deployment of home energy monitors and energy 
efficiency technologies. In fact, we proposed such a concept as 
part of our application for a Smart Grid Investment Grant.
    The consumer market is a powerful force for change, but, 
like all markets, it will only be truly effective when it has 
accurate and actionable information. Federal policies 
supporting entrepreneurs and American competitiveness can 
provide that information and support innovation. We, and our 
trade association, the Demand Response and Smart Grid 
Coalition, stand ready to work with the Committee as it 
continues to examine this issue.
    Thank you very much for the opportunity to share these 
thoughts. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Tuck follows:]

      Prepared Statement of Adrian Tuck, Chief Executive Officer, 
                         Tendril Networks, Inc.

Introduction
    Good morning, my name is Adrian Tuck, and I am the CEO of a smart 
grid technology startup based in Boulder, Colorado, called Tendril 
Networks. As a newly minted American citizen, it is an honor to be 
asked to participate, in however small a way, in the development of 
Federal policy. I wanted to thank Chairman Kerry, Ranking Member 
Ensign, and the members of the Subcommittee for allowing me to testify 
this morning.
    Tendril's sole reason for being is to provide the devices and 
software that allow consumers and utilities to better manage their 
energy consumption. Our platform works by linking residential customers 
with their utilities, and we do so by enabling the utilities to provide 
their consumers with simple-to-use devices such as smart thermostats 
and home energy monitors that allow consumers to manage their energy 
use. Numerous studies confirm that this kind of ``energy awareness'' 
prompts consumers to reduce their consumption. Our software allows our 
partners--such as General Electric--to make smart appliances that can 
react to prices and environmental signals to modify their energy usage.
    Our technology communicates with homes in two ways:

        1. It utilizes new 2-way communicating ``smart meter'' networks 
        being deployed by utilities in many states, and

        2. It also utilizes commercial broadband networks for the 
        approximately 60 million American households equipped with 
        ``drive-by'' meters that chirp out a one-way signal of the 
        meter's read.

    In this setting, we use broadband capability and the Internet to 
create a two-way communication link, making the smart grid come alive 
by using meters that are in the field today and broadband technology 
that is well understood. We've also found this approach to be viewed 
favorably by many state regulators who are responsible for identifying 
cost-effective solutions.
    Using a platform like Tendril's, consumers benefit by consuming 
less energy, and thus saving money and emitting less carbon dioxide. 
Utilities are better able to optimize loads on the grid, and plan for 
the future by accommodating renewable generation, electric vehicles and 
smart appliances. Our studies show that every one million homes 
equipped with a system like Tendril's will reduce carbon emissions by 
over 200,000 tons and save consumers $75 million or more annually.
    In our view, energy efficiency is best measured across at least two 
dimensions. On the one hand, we can and must focus on improving the 
throughput efficiency of the electric system and the buildings it 
serves, including programs to fund improvements in insulation, caulking 
and replacing appliances. On the other hand, we must also consider the 
real-time market and environmental information that can drive true 
transactional and behavior changes. The impacts of these changes can 
drive tangible energy efficiency and environmental benefits.
    A recent Department of Energy Report (``The Smart Grid: An 
Estimation of the Energy and CO<INF>2</INF> Benefits'', January 2010) 
concluded that the development of a smart grid can lead to reductions 
in carbon emissions of 18 percent by 2030 through direct and indirect 
effects. The largest single mechanisms include ``Conservation Effects 
of Consumer Information and Feedback Systems.'' It is clear that 
engaging the consumer with information technology is a vital component 
of an effective carbon mitigation strategy.
    Reducing peak loads on the grid also has a powerful economic 
benefit. A report issued by the Government Accountability Office 
(``Consumers Could Benefit from Demand Programs, but Challenges 
Remain'', August 2004) observed that, ``Although the 100 highest priced 
hours of the year account for only about one percent of the hours in a 
year, they can account for 10-20 percent of the total electricity 
expenditures for the year.'' It is clear that providing solutions to 
reduce peak demand can provide enormous economic benefits and avoid or 
defer the need to build new power plants.
    We believe the transformation of the energy economy will be every 
bit as great as the transformation of the information and communication 
economy we have witnessed over the past 20 years. We see similar 
sustained wealth and job creation opportunities for the Nation if we 
seize the initiative. We believe Google-sized businesses will emerge in 
this transition, and we're working hard to make Tendril one of them. In 
our own small way, we have contributed to job creation. We've added 
approximately 100 well-paid jobs in the last 12 months with plans to 
add several hundred more in the next couple of years. Indirectly, our 
systems will support thousands of new and retained jobs as we deploy 
more of them.

Smart Grid is a National Priority
    Development of a ``smart grid'' has forcefully emerged as a 
national priority, and it was firmly articulated with the enactment of 
the Energy Independence and Security Act of 2007 (EISA). This Act 
established that, ``It is the policy of the United States to support 
the modernization of the Nation's electricity transmission and 
distribution system to maintain a reliable and secure electricity 
infrastructure that can meet future demand growth. . . .'' This 
national policy includes, ``provision to consumers of timely 
information and control options'' (emphasis added). This policy of 
smart grid development was reinforced through funding provisions of the 
American Recovery and Reinvestment Act of 2009.
    We highlight the connection between the provision of ``timely 
information'' and ``control options,'' because it suggests that 
Congress, in passing this legislation, considered information to be a 
key enabling factor of consumer control. In this context, the provision 
of information is important not only for historical analysis of energy 
consumption patterns, but also to enable real-time, automated functions 
by consumers.
    This legislative intent is further supported by the EISA's 
references in this same section to ``digital information and controls 
technology'', ``deployment of *smart' technologies (real-time, 
automated, interactive technologies that optimize the physical 
operation of appliances and consumer devices)'', and the ``integration 
of *smart' appliances and consumer devices''.
    This legislation was amended in the American Recovery and 
Reinvestment Act to establish conditions upon any Federal funding 
provided to smart grid projects that, ``The Secretary [of Energy] shall 
require as a condition of receiving funding . . . that demonstration 
projects utilize open protocols and standards. . . .''
    In June 2009, the Federal Energy Regulatory Commission (FERC) 
released National Assessment of Demand Response Potential. This report 
described the residential customer class as representing ``the most 
untapped potential for demand response.'' Earlier, in March 2009, FERC 
issued a proposed policy statement and action plan that noted, 
``Ultimately, the smart grid will facilitate consumer transactions and 
allow customers to better manage their energy costs.'' This policy was 
finalized in a July 2009 FERC order.
    We highlight these FERC statements and policies because we believe 
these policies suggest FERC's anticipation of information being used by 
consumers to facilitate real-time market transactions. This is 
highlighted further by statements accompanying the adoption of this 
policy by several FERC Commissioners, including Commissioner Marc 
Spitzer who said, ``Equally important, this policy statement is a step 
toward smarter rates that will enable customers to control their 
personal use of electricity.''
    Tendril believes that providing information tools to the consumer 
is consistent with national policy. Improving system efficiencies, 
reducing consumer costs and mitigating environmental impacts all depend 
upon the provision of detailed energy usage information directly to the 
consumer. Open, non-proprietary consumer access to usage information is 
a guiding principle for development of policies governing smart grid 
technologies. We also believe that such access will accelerate 
technology innovation and help the consumer realize additional 
benefits.
    Moreover, providing consumers with greater transparency and control 
over how their information is used in the smart grid environment will 
build consumer trust and confidence in this developing technology. Such 
increased consumer trust will, in turn, promote public adoption and 
acceptance of smart grid systems and solutions, which are not ends in 
themselves but means to achieve policy objectives of clean energy, 
reliable and secure energy infrastructure, economic development, and 
market-based options for the consumer.

Observations
    I would like to offer up three observations for the Subcommittee's 
consideration:

        1. Real-time information is the key to driving energy savings. 
        Today, there is no consistent policy regarding whether and how 
        consumers can see how much energy they are using in real-time. 
        Three states--Pennsylvania, Texas and California--stand out for 
        their decisions to guarantee consumers the right to see their 
        energy use so that they can take action to save energy. Some of 
        my own employees complain that while they have a smart meter at 
        their house, there is no policy from Congress, the state 
        legislature or the public utility commission that gives them 
        the right to useful information coming from the meter. Federal 
        policy--a consumer's right to know--can begin to correct that 
        oversight. Only with real-time information can we inform not 
        just how, but when, we use energy. Is energy expensive right 
        now? Are there renewable sources available on the grid 
        currently? That information is collected at the wholesale 
        level, but it does not flow down to the consumer in real time.

        As noted above, at least three state utility commissions have 
        addressed the provision of real-time information to consumers. 
        Specifically, Texas, Pennsylvania and California have issued 
        decisions in rulemaking proceedings establishing that advanced 
        metering infrastructure (AM I) must provide consumers with 
        direct, real-time access to electricity usage data by 
        delivering that information directly into the home area network 
        (HAN).

        In Texas, the Public Utility Commission established a policy 
        through a rulemaking procedure to implement provisions within 
        2005 legislation HB 2129 and subsequent rulemakings.

        In Pennsylvania, the Public Utility Commission established a 
        policy in June 2009 regarding Smart Meter Procurement and 
        Installation (Docket No. M-2009-2092655) in which they directed 
        that information be delivered via electronic and ``open, 
        nonproprietary two-way access.''

        Finally, we note that the California PUC issued a decision in 
        December 2009 (R.08-12-009) requiring that all AM I deployment 
        in the state must also provide direct access to usage data.

        These state regulations could provide useful models for 
        potential Federal legislation addressing the consumer's ability 
        to access energy usage information in real time.

        In December, our trade association, the Demand Response and 
        Smart Grid Coalition, joined with leading companies including 
        General Electric and Google to support a Call to Action 
        released during the climate meetings in Copenhagen. These 
        companies called on nations and regulators to ensure access to: 
        (1) real-time home energy consumption, (2) pricing information, 
        and (3) carbon intensity information of delivered energy. 
        Together, we concluded that ``[w] e can't solve climate change 
        if people are in the dark about how they use energy in their 
        own homes''

        I firmly believe that the first step to Federal coordination is 
        to establish clear policies that ensure consumers and 
        entrepreneurs have access to the data.

        2. The biggest barriers to innovation are not technical, but 
        economic. Much work is underway to adopt standards that enable 
        communication between energy providers and consumers, but most 
        utilities have little incentive to sell you or me less energy. 
        And in most states, we don't have a choice of energy supplier. 
        We think that Federal legislation can establish greater 
        coordination and give state regulators more abilities to 
        include national energy priorities within their economic 
        analysis models.

        As a general rule, state regulation was not established to 
        encourage innovation. Rather, it was established to manage 
        cost-effective solutions to known challenges of energy 
        distribution. If we hold as a goal the encouragement of 
        innovation, then Federal leadership will be a welcome 
        contribution to the industry. Federal leadership--in the form 
        of policy, legislation and funding--will serve to identify 
        national priorities around energy efficiency, renewable energy, 
        reduced greenhouse gas emissions, and the adoption of new 
        technologies, such as electric vehicles and smart appliances. 
        These identified national priorities provide a foundation upon 
        which state commissions can align local rates and regulation.

        In addition to Federal leadership, we see a benefit from a 
        coordination of Federal activity. Currently, many agencies are 
        making significant contributions to the development of the 
        smart grid. NIST is working with industry to accelerate the 
        development of standards. When established, FERC may promulgate 
        rules establishing the standards. FERC is also developing a 
        National Action Plan for Demand Response to reduce peak loads, 
        and it is examining barriers to the integration of variable 
        energy resources, such as renewable energy. The FCC has 
        indicated that its National Broadband Plan will include 
        strategies to encourage innovation and increased energy 
        efficiency. We strongly support the FCC's initial 
        recommendations regarding the National Broadband Plan. In 
        particular, we support the integration of broadband into the 
        smart grid and provisions to ensure consumer access to 
        information. The DOE is supporting research and development, as 
        well as deployment, through the Smart Grid Investment Grant 
        Program and Smart Grid Demonstration Grant Program funded in 
        the American Recovery and Reinvestment Act. The DOE's smart 
        grid research also received a boost in funding in the 
        President's 2011 budget. Finally, The White House Office of 
        Science and Technology Policy recently initiated an examination 
        of smart grid policy, and Congress has made significant steps 
        toward passing energy and climate legislation that further 
        emphasizes smart grid development.

        It is our opinion that all of the efforts will be strengthened 
        by an overarching Federal strategy for smart grid that can 
        inform and coordinate each of the individual efforts.

        3. Like the telecom revolution, the ultimate driver of change 
        will be the consumer. We, along with partners such as Best Buy 
        and Intel, are offering compelling solutions to consumers as 
        part of utility programs and, where utilities are slow to move, 
        without them. We would like to see a consumer rebate program 
        established that would accelerate the deployment of home energy 
        monitors and energy efficiency technologies. In fact, we 
        proposed such a program as part of the smart grid funding in 
        the Recovery Act.

        Federal consumer rebates have proven effective in other 
        industries to drive consumer adoption. For example, the TV 
        Converter Box Coupon Program helped drive the transition from 
        analog to digital television. Similarly, the State Energy 
        Efficient Appliance Rebate Program is currently being widely 
        promoted by retailers such as Sears as an effective mechanism 
        to drive consumer adoption of more energy efficient appliances. 
        We believe that a similar consumer rebate program that focuses 
        on the deployment of home energy monitoring systems will bring 
        enormous benefit to the Nation in the form of energy efficiency 
        improvements, technology development, and job creation.

    Of course, consumer confidence will be reinforced though cyber-
security and data privacy protections much like those that enable 
convenient online financial transactions. I understand that the full 
Committee will be examining cyber-security and critical infrastructure 
this afternoon, and I urge the Committee to consider the topic in the 
context of our future of smart grid capabilities and our national 
energy efficiency goals.

Conclusion
    The consumer market is a powerful force for change. But like all 
markets, it will only be truly effective when it has accurate and 
actionable information. Federal policy, supporting entrepreneurs and 
American competitiveness, can provide that information and support 
innovation. We and our trade association, the Demand Response and Smart 
Grid Coalition, stand ready to work with the Committee as it continues 
to look at this issue.
    Thank you for the opportunity to share these thoughts. I look 
forward to answering any questions you may have.

    The Chairman. Thank you, Mr. Tuck. We appreciate it.
    Ms. Wigle, I think I added a G to your name, and I take it 
back.
    [Laughter.]
    The Chairman. Thank you.
    Ms. Wigle. Thank you very much.
    The Chairman. Thanks.

  STATEMENT OF LORIE WIGLE, DIRECTOR, ECO TECHNOLOGY PROGRAM 
    OFFICE, INTEL CORPORATION AND PRESIDENT, CLIMATE SAVERS 
                  COMPUTING INITIATIVE (CSCI)

    Ms. Wigle. Mr. Chairman, Senators, thank you very much for 
the opportunity to speak on this important topic of energy 
efficiency and information and communication technology.
    I work for Intel Corporation as our General Manager for 
Eco-Technology, and also have the privilege of being President 
of Climate Savers Computing Initiative, which is a consortium 
focused on driving energy efficiency of computing, itself.
    What I'd like to do this morning is talk about a framing 
device, similar to what the--Mr. Chairman introduced initially, 
and then talk a little bit about what we see as the inhibitors 
and potential policy actions that can be taken to increase the 
adoption of ICT to benefit energy efficiency. And last, I'd 
like to introduce an organization called the Digital Energy 
Solutions Campaign, which is another group that's come together 
to tackle this problem.
    First of all, if you think about it, in 2007 Gartner 
Research published a study that documented that global 
CO<INF>2</INF> emissions from computing were at 2 percent. And 
I think you all understand that we, as an industry--Intel, 
from--at a microprocessor level; our customers, at the system 
level--are doing everything we can to optimize that 2 percent. 
And you'll hear a little bit more about that, I think, later as 
the conversation goes on. And, in fact, I think you can 
consider energy efficiency a basis for competition, for most of 
our industry.
    On the other hand, I think we've put too little emphasis on 
how information and communications technology can benefit the 
other 98 percent. And, in fact, there was a report released in 
2008, called ``Smart 2020,'' that documented that global 
CO<INF>2</INF> emissions could be reduced by 15 percent through 
the application of technology. The areas that they called out 
in that report were smart grid, smart buildings, smarter 
transportation, better logistics systems, as well as smarter 
motors and the use of technology to substitute for 
transportation. And, in particular, it'd be great if I could be 
doing this testimony from my home in Oregon instead of 
traveling to Washington, D.C.
    So, there is clearly an opportunity. And Intel, as a 
company, and many of our counterparts, are participating in the 
businesses associated with this.
    One might ask, though, why we're not seeing more rapid 
adoption in these areas. This has been documented, as I said, 
for almost 2 years now.
    We believe, part of the problem is lack of awareness, this 
lack of understanding of the benefits of ICT in these 
deployments. But, there are also other problems associated with 
just the lifecycle of such investments. The reality is that the 
people who are making the up-front investments are often not 
the people who pay the ongoing operating costs, and that goes 
across a lot of different areas. For example, buildings--you 
think about building stock; the architects and the designers 
may not be thinking about what it costs to actually operate the 
building. So, that's definitely an area where we can see 
improvement by connecting those things.
    In terms of policy, some of the recommendations that we 
would make is for the Federal Government to actually establish 
a roadmap for the implementation of ICT, to lay out the steps 
that should be taken on a timeline, to lead by example. The 
government, at all levels, is a large employer, owner of 
building stock, fleet operator. And so, the government, leading 
by example, both delivers efficiency, as well as provides a 
role model for private enterprise.
    We also believe there's an opportunity to establish tax 
incentives and other incentives to promote the more rapid 
incorporation and adoption of technology. And, along with my 
colleague from Tendril, we also believe that giving utilities 
the incentives to actually drive efficiency or sell megawatts--
as opposed to megawatts, is really, really important.
    And last, we can improve what we can measure. So, we would 
really encourage policy and development of methodologies for 
measuring the effectiveness of ICT in delivering energy 
efficiency. We have some work underway in Japan, in the EU 
here, which we would be happy to share.
    Last, this organization that Intel has helped co-found and 
is now populated with a number of industry companies as well as 
NGO's and trade associations--the Digital Energy Solutions 
Campaign,--is in place, has put together, I think, a really 
good foundation for actions that could be taken here. And we 
would welcome the opportunity, either as DESC or as Intel, to 
support the further work of the Subcommittee.
    Thank you very much.
    [The prepared statement of Ms. Wigle follows:]

  Prepared Statement of Lorie Wigle, Director, Eco Technology Program 
   Office, Intel Corporation and President, Climate Savers Computing 
                           Initiative (CSCI)

    Thank you, Chairman Kerry, for the opportunity to address this 
hearing focused on the role of information and communications 
technology (ICT) in improving energy efficiency throughout the U.S. 
economy. My name is Lorie Wigle. I direct Intel's Eco Technology 
Program Office and also serve as President of the Climate Savers 
Computing Initiative (CSCI). I am here today to stress the importance 
of the Federal Government adopting policies that support and enable the 
full potential of ICT to drive significant energy efficiency gains 
throughout the economy.
    Recent studies have estimated the ICT industry's contribution to 
the world's energy and carbon footprint to be 2 percent and rising.\1\ 
This is what we call the ``micro story''--the energy consumption and 
carbon dioxide (CO<INF>2</INF>) emissions associated with individual 
ICT devices. A major focus of government policy in recent years has 
been on reducing the growth of ICT's direct footprint. Many of those 
same studies, however, have highlighted the significant role ICT can 
play in reducing the footprint of the rest of society--the other 98 
percent--through the energy efficiency gains such technologies can help 
enable. We call this the ``macro story.''
---------------------------------------------------------------------------
    \1\ Gartner Estimates ICT Industry Accounts for 2 Percent of Global 
CO<INF>2</INF> Emissions,'' Gartner press release, April 2007.
---------------------------------------------------------------------------
The Triple Challenge of Climate Change, Energy Security and Economic 
        Growth
    The U.S. and the world face three difficult challenges 
simultaneously: Our climate is changing at the same time that we face 
significant energy security and economic growth challenges. Finding 
public policies that address all three must be a priority.
    Improving society's energy efficiency is the best way to begin 
addressing the challenges of climate change, energy security and 
economic growth. By using energy efficiency to lower energy demand, we 
can reduce emissions of CO<INF>2</INF>, reduce the need for energy 
imports and free up resources for economic growth.
    Fortunately, energy efficiency measures are not only cost effective 
but, in many cases, have a negative marginal cost, meaning they create 
wealth for society overall. Energy efficiency measures, including 
approaches driven by ICT, provide a foundation for economic growth by 
enabling carbon-reducing actions at lower cost, or even a savings of 
resources.

The ICT Industry Has Made Great Progress on the Micro Story
    The ICT industry has made great progress in improving the energy 
efficiency of the products it designs and manufactures. The chart \2\ 
below shows that progress made in the energy efficiency of computation 
has been orders of magnitude greater than progress made in other 
technologies.
---------------------------------------------------------------------------
    \2\ Based on statistical comparisons compiled by the Technology CEO 
Council.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    What's more, the industry has not become complacent and continues 
to find new ways to deliver products that perform more work while 
consuming less energy.

Studies Show that Greater Energy Reduction Potential Lies in the Macro 
        Story
    Substantial evidence shows that the gains realized by improving the 
efficiency of ICT devices are dwarfed by the much greater gains from 
using and networking these devices to improve the energy efficiency of 
society as a whole. The American Council for an Energy Efficient 
Economy (ACEEE) looked at the impact of ICT on the energy efficiency of 
the U.S. economy. The ACEEE report highlights the nexus between ICT and 
energy intensiveness of the U.S. economy: ``Information and 
communication technologies (ICT) have transformed our economy and our 
lives, but they also have revolutionized the relationship between 
economic production and energy consumption.'' Specifically, ACEEE found 
that increasing deployment of ICT in the U.S. over recent decades has 
been a significant causative factor in the declining energy-
intensiveness of the U.S. economy. Comparing the micro and macro story 
effects, ACEEE concludes that, ``For every extra kilowatt-hour of 
electricity that has been demanded by ICT, the U.S. economy increased 
its overall energy savings by a factor of about 10. . . . The 
extraordinary implication of this finding is that ICT provide a net 
savings of energy across our economy.'' \3\
---------------------------------------------------------------------------
    \3\ ACEEE, ``Information and Communications Technologies: The Power 
of Productivity: How ICT Sectors Are Transforming the Economy While 
Driving Gains in Energy Productivity,'' Laitner and Ehrhardt-Martinez, 
February 2008.''
---------------------------------------------------------------------------
    Building on the work of McKinsey and others, The Climate Group and 
the Global e-Sustainability Initiative (GeSI) in 2008 produced a report 
entitled, ``Smart 2020: Enabling the Low-Carbon Economy in the 
Information Age'' that found that ICT strategies could reduce global 
carbon emissions by up to 15 percent in 2020 against a baseline of 
business as usual.\4\
---------------------------------------------------------------------------
    \4\ Smart 2020: Enabling the low carbon economy in the information 
age,'' The Climate Group.
---------------------------------------------------------------------------
Examples of Where the Potential Lies
    Focusing on the U.S. alone, a follow-up report by The Boston 
Consulting Group for The Climate Group and the GeSI found that the 
potential emissions reductions from ICT-enabled energy efficiency could 
be even greater--from 13 to 22 percent over the same period. This 
report identifies, as illustrations, a number of specific ICT-based 
technologies that hold particular promise, including:

  <bullet> Smart Motor Systems--Optimized for energy efficiency, smart 
        motor systems control and adjust power usage output through 
        variable speed drives and intelligent motor controllers. Smart 
        motors monitor energy use and utilize that data for energy and 
        cost savings. Wireless networks enable inter-machine and system 
        communication for further optimization, and simulation software 
        improves overall plant and manufacturing process design. Smart 
        motor systems have a total abatement potential of 970 Megatons 
        (Mt) CO<INF>2</INF> emissions in 2020.\5\
---------------------------------------------------------------------------
    \5\ Smart 2020 Report.

  <bullet> Smart Logistics--Smart logistics include a variety of ICT 
        applications that enable reductions in energy demand through 
        better journey and load planning. This includes software to 
        improve transport network design, inter-modal shifts to a more 
        efficient form of transport, eco-driving, route optimization 
        and inventory reduction. Smart logistics have a total abatement 
        potential of 1.52 Gigatons (Gt) CO<INF>2</INF> emissions in 
        2020.\6\
---------------------------------------------------------------------------
    \6\ Ibid.

  <bullet> Smart Buildings--Smart buildings (new and existing) are 
        optimized for energy efficiency through technologies that make 
        their design, construction, and operation more efficient. Smart 
        buildings use building management systems that employ a 
        computerized, intelligent network of electronic devices 
        designed to monitor and control the mechanical systems (heat 
        and air conditioning) and lighting. They also use solutions to 
        automate power control and/or remotely power on and off devices 
        like PCs. Smart buildings have a total abatement potential of 
        1.68 Gt CO<INF>2</INF> emissions in 2020.\7\
---------------------------------------------------------------------------
    \7\ Ibid.

  <bullet> Smart Electrical Grids--Smart grids integrate ICT 
        applications throughout the grid, from generator to user, to 
        enable efficiency and optimization solutions. These solutions 
        include smart meters to help customers use energy more wisely, 
        as well as: interactive energy generation systems, advanced 
        grid management solutions, demand management systems, greater 
        integration of renewables and transmission and distribution 
        loss reduction equipment. Smart grids have a total abatement 
        potential of 2.03 Gt CO<INF>2</INF> in 2020.\8\
---------------------------------------------------------------------------
    \8\ Ibid.

  <bullet> Travel Substitution--Broadband availability can 
        significantly reduce carbon emissions by supporting telework 
        and making many business trips unnecessary. Teleworking alone 
        can contribute savings up to 260 Mt CO<INF>2</INF> emissions 
        each year.\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
More About the Potential for the Smart Grid Challenges with Today's 
        ``One-way'' Power Grid
    The way the world delivers electric power is based on designs and 
plans that date back many decades. It's based largely on a ``single-
direction delivery'' model: a big power plant that sends out power to 
lots of homes and commercial buildings that receive it.
    No one thought that the grid would someday have to support solar 
power coming from millions of rooftops, or electricity being generated 
by thousands of wind turbines. But that's the future--and the 
electricity grid has to get much more ``intelligent'' to deal with all 
these different sources. It has to manage energy supply and consumption 
across the network in a more real-time, efficient fashion, using new 
metering technologies.
    On the consumption side, commercial and residential building waste 
a tremendous amount of energy because building owners don't know how 
much energy they are using in real-time, and lack any kind of feedback 
loops or digital controls to optimize their energy use.
``Smart Grid''
    The ``smart grid'' aims to solve all those problems. By harnessing 
microprocessors, wireless communications, the Internet, and other 
technologies, we can not only integrate these new renewable energy 
sources, but reduce energy waste, and give consumers more information 
about how they're using power.

Examples of ``Smart Grid'' Intelligence
    There are a number of integrated microprocessor applications. For 
example, a modern wind turbine needs as many as 16 embedded 
microprocessors to control various motor functions, and to enable the 
turbine to exchange data and operational status with the grid. In the 
grid itself, embedded processors are being used in grid substations, 
which locally monitor and manage electricity flow. In smart buildings, 
low power and embedded processors are being designed into energy 
management systems and interactive touch screen displays, to help 
building owners monitor and control their energy use. As the smart grid 
communications network develops, electricity meters, smart buildings, 
and utility data centers all must continuously exchange data and 
communicate with each other over great distances, which can be well 
served by Broadband technologies such as WiMAX.

The Need for Standards
    The most critical element is in a word: Interoperability. An issue 
facing smart grids is the absence of an agreed upon specification 
prescribing how all grid components should be architected and made to 
communicate with each other.
    There are many competing standards and proprietary protocols. To 
help address this interoperability challenge, Intel recommends that 
grid systems and consumer-side systems should be designed as ``open'' 
platforms and that they make use of Internet protocol. In other words, 
they should be designed to flexibly support a variety of standard 
software components and secure interfaces. In June, Intel hosted an 
IEEE meeting in Santa Clara that brought in energy industry experts to 
discuss creation of open smart grid standards. And we are actively 
participating in the process that NIST is leading.
    An open grid system will also be ``future-ready'', supporting new 
innovations and the integration of future applications and service.

Home Energy Management Systems
    Consumers are looking for ways to reduce their energy costs and 
carbon footprints, by employing microprocessor-based ``smart home'' 
technologies. Intel is developing technology for ``Home Energy 
Management Systems'', which visually show the consumer their real-time 
energy use, and enable them to control their energy use, through a 
``dashboard'' which is viewable on any screen: whether it be their Home 
PC, or on a dedicated Touch Screen Display in their home, or on their 
Internet-connected TV. Studies have shown that by providing consumers 
with these types of dashboards and control tools, they are able to 
reduce their peak home energy use by as much as 40 percent.\10\ 
Empowered by such computer-based dashboards, home area networks, and 
social networks, consumers are taking control of their personal energy 
use, and collaborating with others to reduce their carbon footprints. 
The rise of the ``Personal Smart Grid'', in which a consumer is able to 
monitor and control the behavior of their personal energy assets, 
spanning rooftop solar panels, smart appliances, and plug-in hybrid/
electric vehicles, while taking advantage of the wider smart grid, is 
imminent if not already upon us.
---------------------------------------------------------------------------
    \10\ The Brattle Group ``The Power of 5 Percent'', The Electricity 
Journal, October, 2007.
---------------------------------------------------------------------------
What is Missing?
    While the ACEEE study shows the historic role ICT has played in 
reducing the energy- and carbon-intensiveness of the U.S. economy, the 
Smart 2020 analyses demonstrate that even greater benefits are 
possible. Going forward, the question must be asked: What is missing? 
What is needed to realize the full energy efficiency potential of ICT?
    Realizing this full potential will require aggressive public 
policies to correct market failures, remove implementation barriers and 
provide ICT-adoption incentives. Barriers to overcome include:

  <bullet> Lack of information and understanding about the energy 
        efficiency benefits of ICT.

  <bullet> Perceived high up-front purchase costs and lack of 
        understanding of lower life-cycle costs.

  <bullet> ``Principal/agent'' issues where people occupying a space or 
        operating a business don't pay the energy bill.

  <bullet> The perception that many energy efficiency gains are too 
        small to bother with individually when, in fact, they have a 
        major impact when implemented throughout a region or country.

Policies to Realize the Potential of ICT
    Governments can take many actions to encourage ICT adoption. While 
policies will vary depending on national circumstances and cultures, 
potential actions include:

  <bullet> Establishing a national strategy or roadmap for the use of 
        ICT to improve energy efficiency and reduce CO<INF>2</INF>.

  <bullet> Leading by example at all levels, governments--the largest 
        employers, landlords, fleet operators, etc., in the country--
        demonstrate that the benefits of telecommuting, smart building 
        technologies, teleconferencing and other solutions can help 
        drive better understanding in the private sector of the 
        benefits of ICT.

  <bullet> Expanding the availability of broadband throughout society 
        to take advantage of telecommuting, video conferencing, smart 
        grids and the many energy efficiencies possible through 
        intelligent connected devices.

  <bullet> Establishing tax and other incentives for businesses and 
        consumers to accelerate their purchase and deployment of ICT 
        devices.

  <bullet> Changing electricity utility regulation to permit utilities 
        to earn money from energy-efficiency (``negawatts''), not just 
        from the sale of electricity.

  <bullet> Helping create agreed-upon protocols/approaches for 
        measuring the energy-efficiency and climate impacts of ICT in 
        other economic sectors.

Digital Energy Solutions Campaign (DESC)
    To begin addressing some of the barriers to the realization of the 
full macro story potential of ICT, Intel and other high-tech companies 
founded and Intel co-chairs a relatively new organization called the 
Digital Energy Solutions Campaign (DESC). DESC is a coalition of ICT 
companies, allied with NGO's and trade associations, dedicated to 
promoting the adoption of public policies, such as those I have just 
enumerated, that will enable ICT to realize its full potential to 
improve societal energy efficiency and reduce our carbon footprint.
    DESC member companies, in addition to Intel, include AMD, APC, 
AT&T, Cisco, Dell, EMC, HP, Infineon, Johnson Controls, Microsoft, 
National Semiconductor, Nokia, Opto 22, Sony, Texas Instruments, and 
Verizon. In addition, a number of non-governmental organizations and 
associations are affiliated with DESC, including ACEEE, the Alliance to 
Save Energy, The Climate Group, the Information Technology Industry 
Council, ITS America, CompTIA, the Semiconductor Industry Association, 
TechNet, the Technology CEO Council, and the Telework Coalition.

``ICT and Greening the Federal Government
    Intel commends the Obama Administration for the October ``Executive 
Order focused on Federal Leadership in environmental, energy, and 
economic performance.'' It represents in concrete form the DESC policy 
principle of the Federal Government leading by example. We understand 
that the Executive Branch is very busy figuring out the best way to 
measure existing performance to provide a baseline for assessing future 
progress. As it pertains to ICT, the Executive Order clearly 
encompasses both the micro and macro stories. But we recognize that is 
perhaps easier to focus on the micro--the Federal Government purchasing 
more efficient ICT equipment--than it is to focus on how that equipment 
might be used to improve the energy and environmental footprint of the 
overall operations of Federal agencies. Intel and DESC stand ready to 
work with the Office of Management and Budget and the Office of the 
Federal Environmental Executive to explore best practices in bringing 
ICT to bear in reducing that footprint.''

In the End It Is All About the 100-Percent Solution
    Successfully addressing the three challenges of climate change, 
energy security and economic growth will require attention to both the 
micro story (improving the energy efficiency of ICT devices) and the 
macro story (promoting the enabling energy efficiency role of ICT in 
other sectors). The ICT industry needs to continue to design and 
produce more energy efficient devices. And policymakers need to 
implement programs that address the full energy efficiency potential of 
deploying such devices and the ICT systems they enable. The Green IT 
Promotion Council in Japan speaks of both the ``green of IT'' (micro) 
and ``green by IT'' (macro). The goal clearly should be to ``minimize 
the `micro' and maximize the `macro.' ''
Key Initiatives to Advance the Micro Story
    In addition to each individual company in the industry driving the 
energy efficiency and minimizing the environmental impact from their 
products, we're also collaborating to drive systemic efficiencies 
together. Two groups are playing a critical role here: The Green Grid 
and Climate Savers Computing Initiative. Intel is a founding member of 
both.

The Green Grid
    The Green Grid is a global consortium of IT companies and 
professionals seeking to improve energy efficiency in data centers and 
business computing ecosystems around the globe. The organization seeks 
to unite global industry efforts to standardize on a common set of 
metrics, processes, methods and new technologies. The participating 
companies contribute technical resources to develop and disseminate 
these metrics and best practices in order for IT departments to 
optimize their operations.

Climate Savers Computing Initiative
    Climate Savers Computing Initiative is focused on improving the 
energy efficiency of individual computers by improving power delivery 
(largely through power supply technology) and driving the adoption of 
power management (PCs going into low-power states when not in use). 
When the organization was founded in June 2007, the goal was taken to 
reduce CO<INF>2</INF> emissions from computing by 50 percent or 54 
million tons. To-date the savings from these two focus areas are on the 
order of <SUP> cents</SUP>$36 million tons. More than 550 companies 
have joined the organization and committed to purchasing energy-
efficient PCs and servers for new IT purchases, and to broadly 
deploying power management.

Conclusion
    The ICT industry is aggressively pursuing efficiency at both the 
micro and macro level and we are eager to collaborate with the 
Committee to further the policy agenda that supports these efforts.

    The Chairman. Thank you very much, Ms. Wigle. Appreciate 
that.
    Ms. Winkler.

                 STATEMENT OF KATHRIN WINKLER, 
         CHIEF SUSTAINABILITY OFFICER, EMC CORPORATION

    Ms. Winkler. Thank you, Chairman Kerry and Members of the 
Subcommittee, for this opportunity to discuss the role of ICT 
in an energy efficient economy.
    My name is Kathrin Winkler. I'm Chief Sustainability 
Officer for EMC Corporation, a Hopkinton, Massachusetts-based 
Fortune 500 technology company. EMC specializes in building 
information infrastructure. This is the digital foundation for 
storing, protecting, and getting the maximum value from 
information assets. This morning, I'd like to convey three 
points--I think you've heard them; it's always hard to be 
last----
    [Laughter.]
    Ms. Winkler.--but they all warrant repetition--that ICT is 
driving efficiency aggressively within our industry, that ICT 
is central to unlocking increased energy efficiency and 
reducing greenhouse gas emissions throughout our economy, and 
that Congress has a role to play in working with industry to 
realize ICT's full potential.
    Looking first at information technology's use of energy, 
the industry has dramatically increased performance per 
kilowatt in virtually every generation of our products. Our 
customers expect us to reduce their operating costs and help 
them defer or avoid the capital costs of data-center expansion. 
Our stakeholders are asking us to reduce our carbon footprint. 
And our technology culture has efficiency as a core design 
principle of good engineering.
    For these reasons, the industry finds itself competing on 
three levels--on the energy efficiency of our products, in how 
we're reducing the carbon footprint of our operations and of 
our supply chains, and, most importantly, in the market for 
products and services that make ICT operations more efficient. 
Efficient operations are important because the greatest 
opportunity for reducing energy consumption in ICT comes not 
from the products themselves, but from how they're reused, from 
consolidating underutilized equipment and eliminating over-
provisioning resources.
    One of the most game-changing technologies in this arena is 
server virtualization, software that enables a single physical 
system to run multiple operating systems at one time. Without 
virtualization, most servers are being used at only 5 to 15 
percent of capacity. With it, companies can consolidate 
hundreds servers down to a few dozen. Server virtualization 
initiatives based on software from one company, VMware, have 
measured aggregate power savings estimated to be greater than 
the electricity consumed annually in all of New England for 
heating, ventilation, and cooling.
    With the amount of data growing 60 percent per year, other 
breakthroughs focus on efficiency of the data storage 
infrastructure. Solid-state drives, for example, consume 38 
percent less power than their predecessors for capacity and 98 
percent less for performance. Data de-duplication eliminates 
redundant data, reducing the amount of hardware, and thus, 
energy used to manage it.
    ``Cloud computing,'' referred to in the President's budget 
as essential, quote, ``to achieve efficient IT and effective 
IT,'' is a model that delivers ICT as a service. It offers even 
greater consolidation and can offload peak demand, thus 
reducing over-provisioning in corporate data centers. EMC uses 
these technologies in our own ICT infrastructure, which has 
contributed to our reduction of greenhouse gas emissions by 
nearly 20 percent per dollar of revenue in the last 3 years.
    ICT firms are also cooperating. In organizations such as 
the Green Grid, we bring together end users, vendors, and 
service providers to develop metrics, build tools, educate 
data-center operators, and collaborate with government and 
industry organizations around the globe. Yet, this is only one-
fiftieth of the story. As we've heard, it's estimated ICT 
generates 2 to 2\1/2\ percent of global greenhouse gas 
emissions. But, of the other 98 percent, studies have shown 
that by 2020 ICT could abate as much as five times the 
emissions as it generates. This phenomenon is already apparent 
in our home State of Massachusetts, historically a leader in 
information technology and now a State whose energy 
productivity is one of the highest in the Nation.
    We see ICT's potential in the energy sector with emerging 
smart grid technology, where ICT will provide the information 
and tools for utilities and consumers to make more informed 
decisions. We see ICT's potential in the transportation sector. 
Where does the engine for reducing fuel use through 
optimization of routing and of freight packing, as well as 
aggregating fleet performance data to evaluate vehicle 
technologies, fuel choices, and even driving styles?
    There are many other examples, but there are barriers, too. 
Congress can help us overcome obstacles to reducing the 2 
percent by demanding that Federal Government lead by example, 
implementing best practices in technologies in what is the 
largest ICT infrastructure in the world, bridging split 
incentives in the Federal infrastructure through institution of 
appropriate reporting mechanisms, continuing investment in 
cloud computing and next- generation ICT research and standards 
development at NIST, and collaborating with industry to promote 
the development of metrics and tools. To leverage the potential 
of ICT for the other 98 percent, Congress should expand the 
availability of broadband, as we have heard, to connect cities 
and rural areas, and collaborate with industry to develop a 
national strategy for the use of ICT to improve energy 
efficiency and reduce CO<INF>2</INF> in the economy.
    To summarize, ICT industry is in a race to the top. We are 
investing in technology and business-model innovation. We are 
collaborating to drive standards and competing to drive the 
market. Investments in research and innovation will be 
critical, but we needn't wait. The means to realize huge 
efficiencies in ICT and across a broad range of industry 
sectors are available today. Through its actions, Congress can 
accelerate our transformation to an energy efficient economy.
    EMC is passionate about the current and future 
contributions being made by the ICT industry. We thank you, 
Chairman Kerry and Members of the Subcommittee, for this 
opportunity to share our perspective.
    And I ask that my full statement be made part of the 
record.
    Thank you.
    [The prepared statement of Ms. Winkler follows:]

 Prepared Statement of Kathrin Winkler, Chief Sustainability Officer, 
                            EMC Corporation

    Thank you, Mr. Chairman, Ranking Member Ensign, and the member of 
the Subcommittee for this opportunity to discuss the role of 
Information and Communication Technology (ICT) in enabling a more 
energy-efficient economy. My name is Kathrin Winkler and I am the Chief 
Sustainability Officer for EMC Corporation. EMC is a Fortune 500 
technology company headquartered in Hopkinton, Massachusetts. We 
specialize in building information infrastructure, the digital 
foundation that enables the applications and information that nearly 
every organization needs to be effective.
    EMC commends this committee for seeking ways to fully marshal the 
power of ICT as a foundation for realizing the potential of energy 
efficiency, the ultimate renewable resource.
    This morning, I'd like to focus on three major subjects:

        1. How the ICT industry is delivering efficiencies in its own 
        use of energy;

        2. Why ICT is central to unlocking increased energy efficiency 
        and reducing greenhouse gas emissions throughout our economy; 
        and

        3. How government and industry can work together to unleash 
        untapped opportunities with technologies and techniques 
        available today.

    It is well known that ICT has been a key driver of economic 
productivity in this Nation for the past half-century. What is less 
well-known is that, as the American Council for an Energy Efficient 
Economy (ACEEE) demonstrated in its 2007 report,\1\ ICT has also been a 
key driver of energy productivity.
---------------------------------------------------------------------------
    \1\ http://www.aceee.org/press/e081pr.htm.
---------------------------------------------------------------------------
    Technology pervades and to a large extent enables every aspect of 
our economy and our lives. The web has become the world's dominant 
commercial infrastructure. It supports everything--transportation, the 
electric grid, supply chains, telephony, education, entertainment, and 
so on. And the digital information that courses through it is 
dematerializing more and more of human activity, allowing us to create 
economic value while reducing our use of physical resources. When you 
realize that only 20 percent of humanity has access to the web, you get 
a sense of how much upside remains unrealized.

ICT and the 2%
    Let us look first at the ICT industry's direct impact on energy 
use. The ICT industry has dramatically increased the energy efficiency 
of its own products and services, improving performance per kilowatt-
hour in virtually every generation of product. There have been a number 
of compelling drivers for this. First is the principle of good 
engineering requires efficiency to be considered in every design. This 
has been a core value at EMC since its inception 30 years ago.
    Second, there is the constant drive to reduce operational cost for 
our customers. A continual improvement in price/performance of 
information technology combined with rising electricity prices means 
that costs for power and cooling are actually overtaking the costs for 
hardware.
    Third, there is an effort to avoid capital costs. Data centers can 
cost hundreds of millions of dollars to build new. Capital projects 
like data center construction or expansion can the delay implementation 
of business-critical applications by months or years. Businesses that 
do not have the capital to build out new data centers may miss new 
growth opportunities as a result.
    And fourth, there is the need to reduce greenhouse gas emissions 
from the use of fossil fuels upon which we still depend for so much of 
our grid energy.

The Competition for Efficiency
    Energy efficiency is a compelling issue for our customers. Data 
centers can consume as much as 100 times the energy per square foot as 
a typical office building. As a result, the ICT industry finds itself 
competing on three levels. First, with regard to the energy efficiency 
of our own products, we offer more efficient power and cooling 
architectures and features that allow products to adjust dynamically to 
the loads placed on them.
    Second, we compete to reduce our carbon footprint within our own 
operations and throughout our supply chains.
    And third, we compete in the market for products that enable 
efficient ICT infrastructure, because the most significant and 
immediate opportunities for energy reduction come not from the products 
themselves, but from how they are used. The greatest energy waste comes 
from powering underutilized ICT assets and from inefficient use of ICT 
resources.

Technological Advancement
    I'd like to share some examples of how EMC and our industry peers 
are addressing this market.
    EMC offers products and services that help our customers manage 
their information assets with the same rigor with which they manage 
their other critical corporate assets and without compromising quality, 
reliability, or business performance.
    For example, EMC is majority owner of the Palo Alto, CA-based 
company VMware. VMware provides a software tool called virtualization 
that has dramatically changed the technology landscape and ushered in 
an exciting new phase of ICT consolidation through server 
virtualization. Server virtualization enables a single physical server 
to run multiple operating systems at one time. Without virtualization, 
most servers use at only 5 to 15 percent of their capacity while still 
drawing most of their power load. With virtualization software, loads 
can be consolidated onto fewer physical systems for huge energy 
savings. A typical server virtualization initiative can result in 
hundreds of underutilized servers being consolidated down to several 
dozen. Gartner Group estimates that 1.2 million workloads currently run 
in VMware virtual machines; this represents an aggregate power savings 
of about 8.5 billion kWh--more electricity than is consumed annually in 
all of New England for heating, ventilation and cooling.\2\
---------------------------------------------------------------------------
    \2\ http://www.vmware.com/virtualization/green-it/.
---------------------------------------------------------------------------
    With data volume growing at 60 percent per year, additional 
technological breakthroughs have focused on the efficiency of the 
storage infrastructure. Solid state drives, also known as flash drives, 
have no moving parts, and consume 38 percent less power as their 
predecessors for same capacity and 98 percent less for same 
performance. Where spinning disks continue to be utilized, technology 
exists to ``spin down'' the disks when they are not being accessed. 
Additionally, data de-duplication technology transparently combines 
redundant copies of data--including all 20 slightly different versions 
of your last slide presentation--reducing the amount of hardware 
required to backup all those copies.
    Cloud Computing, the concept of delivering ICT as a service, much 
as electricity or telephony are delivered, holds the promise of even 
more efficient use of ICT resources. Compute clouds can further 
consolidate systems for greater efficiency and faster deployment. And 
by using cloud resources to serve peak demand, ICT managers can avoid 
over-provisioning their own data centers. The President's budget refers 
to cloud computing as essential ``to achieve efficient and effective 
ICT'' and describes the Administration's plans to offer limited cloud 
computing options throughout the Federal enterprise.
    EMC is using these technologies in our own data centers, and by 
doing so, has saved $4.3M over a four-year period and reduced our 
carbon footprint by over 60 million tons of CO<INF>2</INF>. Energy 
efficiency in our data centers and throughout our corporate facilities 
allowed us to grow our revenue by more than 50 percent from 2005 to 
2008 while reducing our emissions per dollar of revenue by 19 percent. 
And, by engaging our employees in finding new efficiency opportunities, 
we are on track to achieve an additional 30 percent reduction in energy 
intensity over 2005 by 2012.

Coopetition
    While ICT firms are competing with one another, we are also 
cooperating to accelerate implementation of best practices, establish 
standards for interoperability, and identify new opportunities for 
efficiency. Organizations such as The Green Grid bring together end 
users, vendors, and service providers to develop metrics, build tools, 
educate the community on how to save energy, and collaborate with 
government and industry organizations around the globe to share 
knowledge and create a common lexicon for ICT efficiency.

The Other 98%
    Yet, this is only 1/50th of the story. It is estimated that ICT 
accounts for 2 percent of global greenhouse gas emissions. What about 
the other 98 percent? McKinsey tells us that investments in energy 
efficiency alone could deliver up to half of the emission abatement 
required to cap greenhouse gas concentrations at 450 parts per 
million.\3\ Further, they tell us that applying information technology 
for efficiency in five categories of investment could eliminate nearly 
8 metric gigatons of greenhouse gases by 2020--five times more than it 
will generate.
---------------------------------------------------------------------------
    \3\ http://www.mckinseyquarterly.com/
How_IT_can_cut_carbon_emissions_2221.
---------------------------------------------------------------------------
    The analysis by the American Council on an Energy Efficient Economy 
shows that during the last two decades, ICT has already produced 
between six and fourteen kWh of savings for every kWh it has consumed. 
This phenomenon is apparent in our home state of Massachusetts, 
historically a leader in information technology, and now a state whose 
energy productivity is one of the highest in the Nation.\4\
---------------------------------------------------------------------------
    \4\ http://www.mass.gov/Eoeea/docs/doer/pub_info/
Giudice%20FCC%Testimony%201130
2009.pdf.
---------------------------------------------------------------------------
    We must take care not to implement policies that would have the 
perverse effect of inhibiting investment in technologies that will 
consume some energy, but can abate much more. We do not want to be 
kilowatt-wise and megawatt-foolish.

ICT in the Broader Economy
    I would like to cite just a few of the many examples of how 
information technology is driving energy efficiency across the broader 
economy.
    The emerging smart grid not only uses information technology to 
transmit rate, usage, and control data, but it will have the 
information for accurate forecasting and provisioning of electricity, 
and for responding quickly to external influences such as weather 
events or unanticipated demand. Consumers will have the information 
they need to understand the cost implications of their day-to-day 
choices, enabling them to adjust their behavior accordingly. And it is 
ICT security technology that will give consumers the confidence they 
need to participate in what must be an ``all hands on deck'' effort.
    In transportation, ICT is the engine for reducing fuel use through 
optimization of routing and of freight packing. And our customers in 
this segment tell us it is doing much more. Aggregating information 
from their fleets enables them to understand the impact of fuel 
choices, vehicle technologies, and even driving styles to further 
remove energy waste.
    These same capabilities applied to other dimensions of our 
infrastructure--buildings, transportation, agriculture--will create 
systems that are not only automated, but that adjust to demand and 
other influences such as outside temperatures to generate further 
efficiencies.
    Nor should we overlook the role of ICT in research and development, 
where high performance computer modeling is accelerating design of new 
materials and technologies for clean energy and energy storage.
    And of course virtual meeting technologies such as web conferencing 
and TelePresence are having a real and immediate impact. In EMC, our 
investments in eConferencing have reduced our carbon footprint, saved 
travel expense, and increased our productivity--a classic win-win-win.
    These are but a few of the many examples of ICT as an enabler of 
energy efficiency. Organizations such as the Digital Energy Solutions 
Campaign, disseminate information to and collaborate with stakeholders 
to find, encourage, and measure ICT-enabled energy reduction and carbon 
abatement.

Implementation Obstacles
    But there are barriers in both the 2 percent and the 98 percent.
    There is still a significant population of stranded and 
underutilized ICT assets, particularly in smaller data centers that 
don't have the expertise or capital to invest in improvements. The body 
of knowledge still resides in the hands of a relatively small number of 
practitioners. And many data centers and businesses simply haven't 
taken advantage of the technology and best practices that are available 
to be deployed today.
    In fact, these smaller data centers are proliferating in the 
national government. The EPA Report to Congress on Server and Data 
Center Energy Efficiency estimated that the Federal Government's 
electricity cost for its servers and data centers was $450 million in 
2006 and was doubling every 5 years, putting the cost for 2011 at 
nearly $900 million. A 1998 survey of Federal agencies identified 432 
agency data centers. In September 2009, agencies reported that the 
number of Federal data centers had grown to 1,100. This trend runs 
counter to the well-established best practice of consolidating to fewer 
data centers to reduce costs, energy consumption, and environmental 
impacts, while improving service and performance.

Role of Congress
    Congress has a role to play in removing the barriers to reducing 
ICT's 2 percent. Congress should focus on four key areas:

        1. Demand the Federal Government lead by example to drive 
        energy-efficiency throughout its ICT enterprise by aggressively 
        pursuing virtualization, and ICT/data center consolidation.--
        Congress, through its various Committees, has oversight 
        responsibility for the largest ICT infrastructure in the world; 
        the President's FY 2011 budget requests $79.3 Billion for 
        information technology. OMB included in the FY 2011 budget a 
        plan to drive ICT consolidation: ``OMB will work with agencies 
        to develop a Government-wide strategy and agency plans to 
        reduce the number and cost of Federal data centers. This will 
        reduce energy consumption, space usage and en-vironmental 
        impacts, while increasing the utilization and efficiency of IT 
        assets . . .'' Congress should request and review these 
        strategic plans as part of the annual appropriation process and 
        provide the resources necessary to accelerate OMB's ICT 
        consolidation plans.

        2. Bridge split financial incentives in Federal data centers.--
        In many government data centers, those responsible for 
        purchasing and operating the ICT equipment report to the CIO 
        while those responsible for the power and cooling 
        infrastructure typically pay the utility bills. This leads to a 
        split incentive, in which those who are most able to control 
        the energy use of the ICT equipment (and therefore the data 
        center) have little incentive to do so or even insight into 
        their own usage. This could be remedied by Congress requiring 
        that agency CIO's report on data center energy consumption and 
        provide a baseline to Congress for future comparison.

        3. Continued investment in cloud computing and next 
        generational ICT research at NIST.--Government has become an 
        early adopter of cloud computing. As with the deployment of 
        other promising technologies like smart grid and electronic 
        health records, cloud computing will not be fully realized 
        without open interoperability, data portability, and security 
        standards. Congress should fully fund NIST's Cloud Computing 
        Standards Effort.

        4. Collaborate with industry to promote the development of 
        measurement tools for government and private sector data center 
        operators.--Industry continues to struggle to develop 
        acceptable models to measure data center efficiency. Without 
        reliable efficiency methodologies on which to base rebate 
        programs, it is difficult and expensive for utilities to 
        conduct tests themselves and many simply forego rebate 
        programs. With an estimated 1200 regulated utility service 
        areas in the United States, there is tremendous potential for 
        replication of successful programs. With Energy Efficiency 
        Resource Standards mandates in more than 19 states, Congress 
        should assist in providing useful measurement tools for the 
        state PUCs to incentivize energy conservation in data centers.

    Similar barriers exist across the other 98 percent. Split 
incentives discourage ICT investment in leased facilities by both 
landlords and tenants. Capital investments in efficiency, while showing 
attractive returns, may still be prohibitive, particularly for small 
and medium businesses. There is a shortage of expertise and tools for 
applying best practices in disciplines that could have a substantial 
impact. And there are many places that simply do not have 
infrastructure such as broadband on which to build next generation ICT 
solutions.
    Congress can act right away in three key areas.

        1. Expand the availability of broadband. EMC strongly supports 
        Congressional programs that expand the reach and quality of 
        broadband in this country. Broadband is vitally needed to take 
        advantage of telecommuting, video conferencing, and the many 
        energy efficiencies possible through intelligent connected 
        devices. Moreover, connected cities and rural areas are vital 
        to the success of the Administration's drive to digitize health 
        records, enable the energy Internet, and connect rural schools. 
        While, each of these programs will increase the energy demand 
        for ICT systems, they will provide much greater efficiencies to 
        the broader economy.

        2. Call for a national strategy for the use of ICT to improve 
        energy efficiency and reduce CO<INF>2</INF> in the economy. A 
        major barrier is an agreed-upon protocol or approach for 
        measuring the energy-efficiency and climate impacts of ICT in 
        other economic sectors. Congress should encourage the Executive 
        Branch to develop a national strategy or roadmap for the use of 
        ICT to improve energy efficiency and reduce our greenhouse gas 
        emissions.

        3. Expand public-private partnership. The transformation to an 
        energy-efficient economy will be accelerated through 
        complementary actions in public policy, open standards, and 
        technological innovation that can only be achieved through 
        collaboration across segments, and between government and 
        private industry.

Conclusion
    To summarize, the ICT industry is in a race to the top. We are 
investing in technology and business model innovation. We are 
collaborating to drive standards and competing to drive the market.
    Technology and best practices already exist and are in use today; 
they could have an even greater impact if we conquer the implementation 
barriers. While we need to continue to invest in innovation, we must 
also accelerate deployment, and strengthen the public-private 
partnership to provide both the incentives and the means for economy-
wide energy efficiency and reduction of carbon emissions. And we must 
not focus only on the ICT industry itself--but also on how it enables 
the other 98 percent, lest we save ICT kilowatts at the expense of 
economic megawatts.
    Last year marked the 20th anniversary of the World Wide Web. Its 
inventor, Tim Berners-Lee was asked recently where the web could take 
us tomorrow. He spoke of the emergence of a web of data that people can 
share and mash up and use at will, saying ``I think when we have a lot 
of data available on the web about the world, including social data, 
ecological data, meteorological data, and financial data, we'll be able 
to make much better models from which to draw conclusions.''
    Thank you, Mr. Chairman, Ranking Member Ensign, and the member of 
the Subcommittee for this opportunity to share our perspective. EMC is 
passionate about the current and future contributions being made by the 
ICT Industry in enabling energy efficiency, the ultimate renewable 
resource.

    The Chairman. Thank you, Ms. Winkler.
    And, without objection, it will be made part of the record. 
All of your statements will be made part of the record as if 
read in full.
    Let me begin by asking Mr. Chopra--you talk about the smart 
grid--a number of you have mentioned the smart grid--and we all 
hear the virtues of a smart grid, and obviously I am supportive 
of that, but I get a little frustrated, in a sense, talking 
about a smart grid, when we don't really have an American grid. 
I mean, we just don't have a grid. And it's one thing to talk 
about it being smart, when we can't even sell energy produced 
in Arizona to New England, et cetera.
    So, what are we going to do about getting a grid in 
America? Because we've got an East Coast grid, a West Coast 
grid, a Texas grid, and this tiny line up north in Chicago, 
North Dakota, et cetera. That's it. A gaping hole in the center 
of our Nation which prohibits investment because you can't get 
a return on investment, based on the size of the market, et 
cetera, for the kind of energy you produce in one place. Help 
me with that, can you?
    Mr. Chopra. Yes. Well, Mr. Chairman, you--you've put your 
finger on a very important component to this, which is ensuring 
we have the market conditions that would spur investment, that 
would essentially connect the pieces that you're describing. 
That's why the President has been committed to working with 
Congress on enacting and implementing a comprehensive market-
based policy. And the goal, obviously, is to achieve a great 
deal of efficiencies in the system, but also to address the 
greenhouse gas emissions challenge.
    The Chairman. Let me stop you for a minute. Have I missed 
something? Am I--is there a proposal on the table for the 
national buildout of a grid which has preemption so we don't 
spend the next 20 years with one State fighting with the other 
over where the connection goes?
    Mr. Chopra. No. But, I appreciate the--there is a task 
force that is clearly focused on this issue and will clearly 
look forward to working with the localities on how we address 
the jurisdictional issues around the transmission networks, the 
research and development capacities to ensure that we have the 
right storage capabilities so that the energy that's produced 
in one location can be efficiently transmitted and stored----
    The Chairman. Well----
    Mr. Chopra.--so that then----
    The Chairman.--I have to----
    Mr. Chopra.--it can----
    The Chairman.--tell you, I----
    Mr. Chopra.--be deployed----
    The Chairman.--I mean, I'm not often--you know, I don't 
often express frustrations publicly about things, but this--on 
the Administration--but this is one where I just--I don't get 
it. I don't understand why this was an issue, almost number 
one. You want to get the economy moving, way back, last 
January. This--it seems to me, you've got to build out 
America's grid. And nothing will do more to excite capital flow 
to some of these other things than the idea that you've got 
this enormous national market of--accessible to you.
    Mr. Chopra. Mr. Chairman, we absolutely concur with that. 
That's why we put over $3.5 billion, from the Recovery Act, 
dedicated toward--with your support and Congress's action--to 
invest in the components that would be enabling of that vision. 
So, you need to look at the ability to produce renewable 
energy. You need to look at the transmission issues, both from 
a policy standpoint and from a technology standpoint. You've 
got to address the storage issues. And so, we have 
comprehensive activities in each of these domains.
    But, perhaps I misunderstood your question. To the extent 
that there--there are, basically, movements on all of these 
fronts, Mr. Chairman, that are taking place now, as we speak, 
called for over the last year, since we've been working on 
these issues.
    The Chairman. Does FERC need to be overhauled to make it 
happen?
    Mr. Chopra. Well, Mr. Chairman, I--with all due respect, 
that is not my area of expertise, and it would----
    The Chairman. Fair enough.
    Mr. Chopra.--frankly, welcome the----
    The Chairman. Fair enough.
    Mr. Chopra.--the ability to----
    The Chairman. No, that's fair.
    Let me ask you, Mr. Hesse--and you might comment on this, 
any of you--but, you mentioned, I think, Mr. Tuck, that the 
market is--you know, the market of technology in 1990s, et 
cetera, was a big market. This is much bigger. In fact, I think 
the market of the 1990s was about a trillion-dollar market with 
a billion users. The energy market is a $6- to $10-trillion 
market, with potential of 6 billion-plus users.
    It's hard for me to understand why your company, or Sprint 
or someone else, are, sort of, you know, the exception rather 
than the rule. Where is American enterprise in understanding 
that the transformation of the American economy is in energy 
efficiency--alternative, renewable, et cetera--rather than 
watching China, India, South Korea, Germany, France--all of 
them are rated well ahead of us, in terms of, you know, their 
ability to be low-carbon-intensity economies. Can you help me 
understand that?
    Mr. Hesse. Well, I can't speak for all other companies, Mr. 
Chairman; I can speak for Sprint's point of view. I mean, we're 
moving aggressively in this area, because it's just--it's good 
business.
    Number one, I think, customers like doing business with 
companies that share the same values. And when you do the 
research about what customers are looking for, I think that's--
you know, that's number one.
    Number two, there has to be a good return on investment as 
you invest in these new technologies. And we have found that to 
be the case, in terms of reducing our energy expenses----
    The Chairman. Let me just----
    Mr. Hesse.--reducing paper----
    The Chairman.--ask you----
    Mr. Hesse.--expenses----
    The Chairman.--to comment--and you could also--as you all 
have--answer this question--To what degree is the pricing of 
carbon a critical element of exciting that investment and 
providing a certainty or a signal in the marketplace for people 
to invest?
    Mr. Hesse. Well, you know, we just do the--you know, the--
if you will, the financial analysis of what the capital costs 
are, what the investments are. Because generally there's an up-
front investment to almost every green or new technology; and 
then, of course, we compare it to the cost of carbon and the 
cost of energy, and you figure out your payback. And it is very 
much an economically driven decision.
    The Chairman. But, you're seeing it as an--economically-
driven on the plus side?
    Mr. Hesse. Yes, we are. We're seeing these as good 
investments to make.
    The Chairman. How----
    Mr. Hesse. For----
    The Chairman.--do you----
    Mr. Hesse.--two reasons. It stimulates demand for our 
products and it--number two, it reduces our costs.
    The Chairman. And maybe you can help us just understand how 
it pays to take back 19 million devices.
    Mr. Hesse. Well, actually, because--the reason is because 
there are valuable materials, as we mentioned--you know, even 
though the Olympics only come along once every 4 years, there 
are lots of other uses for the materials. And what we have 
found is--what we have done historically is, when customers 
return devices, a number of them, the phones----
    The Chairman. We're not going to tell----
    Mr. Hesse.--can be----
    The Chairman.--the athletes that they are recycled.
    [Laughter.]
    The Chairman. We're going to tell them that they're 
innovatively produced.
    [Laughter.]
    Mr. Hesse. That's correct. But, a number of--one of the 
reasons we take them back is, a number of phones can be put 
back into the system and sold as ``used,'' either in the United 
States or around the world, and that is good, in terms of 
getting as much maximum life out of these devices as possible. 
Other devices, they don't have a use in the market, but there 
are materials, like gold and silver, that the value is in 
excess of the cost--because there is a cost of environmentally 
recycling this. And what we have done historically is, whatever 
that difference is, we donate that additional profit to an 
organization called For Net Safety, which keeps the Internet 
safe for children. But, it still has not stimulated--you know, 
``We'll take your phone,'' that hasn't stimulated enough return 
or recycling of phones, and that's why we are now adding an 
additional financial incentive to do that. But, net-net, there 
is value in these devices, and it just makes no sense for 
consumers to throw them away.
    The Chairman. Does anybody else want to comment? And that's 
my last question.
    Mr. Tuck. You asked why we were falling behind to other 
parts of the world, related to things like the smart grid, and 
you talked about the size of the market. I don't think it is a 
market yet. It's a great opportunity, but--I think the one 
thing that the U.S. taught the world, in the telecoms market, 
was that the role of government was to create a level playing 
field and allow private companies to compete in the space, by 
giving access to information and ensuring things like the price 
of carbon. In our case, now the price of carbon is a well 
understood thing. And neither of those things yet exist enough 
to make this market move.
    So, I can't compete in lots of places, because I don't have 
access to data that I need of the systems. So, I don't need 
money, I don't need a check from the government; I need a 
marketplace. And, really, regulation can provide me with access 
to consumers, with their permission, consumption information so 
that I can provide innovative services to them to help them 
save money. And I don't have that level playing field at this 
point.
    The Chairman. Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you.
    I want to compliment the panel. I have found this to be 
very, very fascinating testimony.
    Let me, if I might, zero in maybe a little more on the 
micro level, Mr. Tuck. And I'm going to start with you, because 
I want to understand what we can do, from a policy standpoint, 
to follow up on your last comment.
    Let me give you a hypothetical. Let's say that I own a 
commercial building, or maybe I own just my home, and I want to 
get a better idea of, minute by minute, how much energy is 
consumed. You know, somewhere out there, there is a gas meter 
and there is an electric meter, but, quite honestly, it doesn't 
do me a lot of good. It does the utility company a lot of good, 
because they send me a bill every month. How do I interface 
with that so, literally, if I wanted to call this up on a 
laptop or some other device, I could look at what's going on 
with our energy use and try to get a handle on how better to 
manage that? Tell me the impediments to making that happen 
today.
    Mr. Tuck. So--thank you, Senator. There are two parts to 
that. One is technical and one is procedural.
    The technological one is that about half the homes in North 
America are already equipped with a meter that, with a very 
simple piece of self-installed technology, you would be able to 
get access to your gas, water, and electricity meter in your 
home, and then view via a website or on a dedicated device or 
on your smart phone. So, the other half of the homes need to be 
fitted with something; and I don't know, you know, whether your 
home would fit. But, the more important piece is that you don't 
yet have rights to that information. And so, the ability to 
access that information in realtime as a consumer of the energy 
consumption in your home is not currently a right that's 
afforded to you by all utilities. And so, getting clarity, at 
the Federal level, about what the rights should be for 
consumers to get access to that information, is critical.
    Senator Johanns. Are the utilities against that?
    Mr. Tuck. I don't think so, sir.
    Senator Johanns. OK.
    Mr. Tuck. The temptation here is to demonize the utility. I 
don't think that's the case. I think they just have a lot on 
their plate. Utilities do what regulators tell them to do, and 
regulators haven't told them to do this yet.
    Senator Johanns. How best would you go about accomplishing 
that technical step, if you will?
    Mr. Tuck. I think the technical piece of fitting homes with 
smart meters is well underway. There's a NIST process, which 
has defined a set of standards, and----
    Senator Johanns. OK.
    Mr. Tuck.--and the stimulus dollars are moving forward, 
which will help get meters into people's homes. But, for the 
people who already have them, or at least a type of meter that 
would work, I think some sort of best-practices model that 
States could follow would be an important piece of work that 
could be done.
    Senator Johanns. OK.
    Mr. Chopra, let me ask you about the grid issue, because 
that's a puzzling issue, I think, for everybody involved. And 
yet, I think the Chairman makes a good point, that's kind of an 
entry point for a lot of issues here.
    What would it take to make that happen where we would have 
better connectivity? For example I represent the State of 
Nebraska. As you know, we're a 100-percent public power State. 
It's worked well for our State. But, it's the only one in the 
country, and sometimes we feel like, when the debates occur on 
grid and smart grid, et cetera, that nobody connects with that 
fact. Help me think through that. What steps are necessary to 
create the smart grid that you always hear about?
    Mr. Chopra. Well, I would say it starts with a set of data 
standards and energy standards that would allow different 
inputs, if you will--supplies--whether it be a solar panel on 
your roof or a small micro plant, if you will, that can 
commute--that can produce power for your neighborhood. How can 
that supply connect into a system that can meet the needs of 
your home, your neighborhood and ensure that the utility has 
the right control systems in place so that the energy is 
reliable in delivering a certain amount of output?
    So, you need to understand how do you input energy to the 
system. You then need a mechanism to transmit that energy. And 
that's where I said earlier to the Chairman, the notion of 
storage as one of the technological innovations that could be 
helpful in enabling this so that if, for example, you have a 
wind--a modest capability to capture wind, but it only--it's 
only producing enough energy during certain times of the day, 
which, by the way, don't coincide with the times of the day 
when we're at peak demand.
    Senator Johanns. Yes.
    Mr. Chopra. So, having storage, an ability to capture that 
energy, and then to be able to distribute that and use it when 
there are otherwise periods of peak demand, that's an 
innovation--a technological innovation that we need to work on 
as a society. Storage helps on solar, wind, and almost all 
nature of renewables. They all have the same need.
    There's this information component, that Mr. Tuck so kindly 
and thoughtfully described, which is, What is the standard by 
which I should--do I want to log into 
www.checkhereformyenergystatistics
.com?
    Senator Johanns. Yes.
    Mr. Chopra. That's probably a little silly, in the sense 
that you wouldn't even know what to do with the long string of 
numbers. Today, you and I get a bill once a month.
    Senator Johanns. Yes.
    Mr. Chopra. So, if there's a data standard--an open 
standard, where an entrepreneur in your State knows the 
protocol, can build an interesting application that can consume 
that data that Mr. Tuck is going to help release through some 
of his devices, then maybe someone comes up with an interesting 
text-messaging system that alerts you, so you can make 
judgments about your usage.
    So, one of the challenges on smart grid is, we--it's 
defined very broadly. There are policy barriers. I think the 
Chairman very thoughtfully described this notion of: How do you 
deal with the transmission issues across the country? There are 
capital issues: How do we fund the equipment necessary to 
produce the energy, to transmit it, and to manage the 
information components of this? And there are a set of these 
technological standards and technological innovations, as I 
alluded to.
    I hope that was moderately helpful.
    Senator Johanns. It's helpful. My time is up, but I want to 
wrap up with this thought. You know, we go through these 
agonizing arm-wrestling debates on cap-and-trade et cetera, et 
cetera, but it seems to me like there is so much potential 
here, if we could just figure out how to bridge that. And you 
know what? It's something that would get a tremendous amount of 
support. We want to do more wind energy in Nebraska. We have a 
lot of wind. The wind blows----
    [Laughter.]
    Senator Johanns.--the wind just--we see that as a great 
potential and an opportunity, and we want to develop that. 
We're big supporters of that. So, my hope is that maybe this 
hearing spurs some discussion about some of those things. I see 
this as kind of low hanging fruit, to be honest with you. And 
it sure seems to me there has got to be a way to figure out 
some of these issues. It really does have the potential to be a 
win-win for a lot of people.
    Mr. Chopra. Just rest assured, we would be very keen to 
work with you on this issue. We deeply believe there's value 
here to be unlocked, and the private sector has been a 
phenomenal partner in driving innovations, here. So the 
opportunity here is rich, and we would be keen to work 
together.
    Senator Johanns. Great.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Appreciate 
that, and a good panel. I appreciate that, as well.
    If I could just build on the wind comment, because we've 
got a lot of it in Kansas----
    [Laughter.]
    Senator Brownback. We've got a new concept now, we call 
``stranded wind.'' So, we now have wind farms that are built in 
the western part of the State that we cannot get the wind 
energy out of. Mr. Hesse, you guys are buying wind off of a 
wind farm. Most of our transmission lines are built to take it 
from, generally, power plants in the eastern part of the State, 
and move it west. The wind farms are in the west, and there's 
just not the capacity.
    We're trying to get, through the Southwest power pool now, 
a big V-line that has the 765 voltage, the big voltage to carry 
the wind out, and we're getting mixed reviews from some of the 
other States, on whether they want to help us to pay for this, 
or not. They're saying, ``Well, look, we want to sell our wind. 
We've got it, too.'' I understand. And they do. But, my point 
in saying all this is that the transmission issue is critical 
and you have been a big help on that.
    We do have an energy bill that's out of committee, it's a 
bipartisan bill, I think there were only five or six votes 
against it; it has some transmission pieces in it, not as 
robust as some would like. But, I hope we can get that to the 
floor and move it, because transmission is the critical 
component on this.
    Mr. Hesse, how did you guys, you run off of wind power, how 
do you get it there? Or did you just say, ``We're going to buy 
so much wind off of this farm to help in the development of 
that wind farm operation?''
    Mr. Hesse. Well, I first have to give credit to my 
predecessors at Sprint for making that decision when the Sprint 
campus was built. We were one of the anchor tenants, working 
with KCP&L to really justify their investment and build off 
that wind farm.
    But, what we're doing to take it further, we're testing 
wind turbines on campus today to see if, in addition to 
hydrogen fuel cells, we can use other technologies, like wind, 
to power cell sites. Because our network really is--it's our 
big use of power in our industry. It's not headquarters so 
much. To run a network, to run servers, computers, cell sites, 
and what have you, that--you know, that takes a lot of power 
consumption. We're using solar--we're testing solar in places 
like California that don't have as much wind, but may have more 
sun. But, basically, just a very good--you know, very close 
level of cooperation with our power company, KCP&L. And we 
planned the building, if you will, of this wind farm, together 
with other companies. We--you know, we came together to get it 
built.
    Senator Brownback. Because what I'm finding for a number of 
wind developers, they have to have an anchor buyer----
    Mr. Hesse. That's exactly----
    Senator Brownback.--for the wind. But, if they can get 
that, they'll build it, because they've got to be able to cover 
their investment. I really appreciate you guys doing that.
    Mr. Chopra, in the Ag sector, and Mr. Hesse held up his 
phone; part of it's made out of corn. They've got a series of 
different new products, and this is a movement that started 15 
years ago. I remember a guy came in once, years ago, when I was 
Ag Secretary in Kansas, and he had a skeet made out of 
cornstarch. You know, that's kind of a simple little thing, but 
it's normally petroleum-based. But what a great little simple 
idea. It would be very easy to kind of double back with some of 
these guys and say, ``What is it you want to do?'' Mr. Hesse, I 
just had in my office some Johnson County Community College 
people that want to build a green home in Johnson County, with 
Pittsburgh State University. They've developed a foam rubber 
that's used in Mustang cars now, it's made out of soy beans, so 
it's recyclable; or if you get stuck in a snowstorm, it's 
edible.
    [Laughter.]
    Senator Brownback. I'm not exactly sure about that, but 
it's made out soy, anyway. But, they've got a green concrete 
they're working on, and they want to build a green house, 
literally ``green'' house in the area, and I thought it is a 
great innovative idea, and yours would be a great company for 
them to work with on this. And I hope that they can work with 
you, and move that on forward.
    Mr. Tuck, are you suggesting that you have a national piece 
of legislation on the ``right to know''? Is that what it would 
take, because I hear you saying that half the homes have this 
information readily available, but they don't have a right to 
get it.
    Mr. Tuck. To be honest, sir, I'm not expert enough to know 
where the policy needs to sit. I can just identify that 
something needs to be done, because there are some States that 
are moving ahead, and others that aren't. And what I hear from 
State regulators is that, at a minimum, they'd like to see some 
guidelines, some sort of best-practices template put together 
that people could follow. I don't know if it extends all the 
way through to national legislation.
    Senator Brownback. But, you have three States that have 
enacted legislation like this, if----
    Mr. Tuck. Yes.
    Senator Brownback.--I heard you right?
    Mr. Tuck. Yes.
    Senator Brownback. Is there a cost associated with that?
    Mr. Tuck. I don't believe so, sir, no.
    Senator Brownback. So that they've been able to do that, 
and just that information has to be readily available to the 
consumer.
    Mr. Tuck. That's correct.
    Senator Brownback. Those things have always impressed me, 
that when I know what's going on and I react accordingly. One 
of my daughters has a Prius car; and that dial, I'm always kind 
of playing a game with it: How efficient can I be?
    [Laughter.]
    Senator Brownback. And then I can measure how much they've 
been really going fast. I have daughters that drive 
differently, and they get different performances out of those 
cars. But, I think it's a good way for us to be able to go.
    I really appreciate it, and particularly want to say the 
Sprint company, Mr. Chairman, and others, have done an 
outstanding job. They have the premier sporting facility in 
Kansas City, the indoor sporting facility. They've done it in a 
very ecologically sound fashion. The things that they do are, I 
think, phenomenal, and I think they present a real case study 
of how a company can step up and do the right things. It 
doesn't cost more, and it actually creates markets to be able 
to do that. I didn't realize the medals were recycled at the 
Olympics; I appreciate understanding that.
    I close on this comment. Years ago, I had a chance to carry 
the bill for Congress to give Mother Teresa the Congressional 
Gold Medal, and she and her group asked to recycle it and melt 
it down, to sell the gold to give to poor. They were going to 
do it in another fashion, and we said, ``Why don't you not do 
that. Just auction it off, you'll get more money for it.'' But, 
I think that's a really interesting way for us to highlight and 
to showcase the great things that we can do that help us as a 
society, costs nothing, and really show the right way. 
Appreciate your leadership.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Brownback.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I've decided to stay away from wind, I learned long ago 
that 20 States, including my own, claim themselves to be the 
Saudi Arabia of wind.
    [Laughter.]
    Senator Klobuchar. But, I thought I would focus more on 
some of these energy efficiency issues and, really, first off, 
the marketing piece of this, because I did a series of energy 
efficiency forums across my State and found that we were doing 
some interesting things. Some of--even some of our smaller 
utilities--I mean, obviously, we're home of Excel, and we also 
have 3M and Best Buy. We believe in giving consumers 
information, and that they're going to make the right 
decisions. But, one of the things I found was that some of the 
experiments they'd done in certain neighborhoods, when 
consumers found out how much their neighbors were expending, 
that it got them more interested in saving that energy.
    So, could--well, maybe you want to start, Mr. Chopra. Could 
one or two of you just address that piece of this, how you get 
people to see that it's not just the base price, but it's also 
how much you can save in the future, and what's the best way to 
do that.
    Mr. Chopra. Senator, I just--I so concur with your view. 
And frankly, we wanted to tap into the innovative spirit of the 
American people. That is why we launched the Smart Grid Forum 
today. We have a great deal of conversation that takes place in 
Washington, but the premise was, How do we take this 
conversation all across the country so that consumers, 
suppliers, utilities, other stakeholders can share what they 
want to see coming out of the data effort here, the consumer 
access to that data, so that, basically, more and more of those 
applications can thrive? I'd love the language Mr. Tuck used 
about a ``marketplace.'' And there's a great deal we can do in 
the here and the now to push. That's why this online forum over 
the next several weeks is going to surface those ideas, allow 
the American people to talk about which ones are more or less 
intriguing. And frankly, the bottom line is, if we can tap into 
the information--that's what the smart grid grants, in part, 
are doing; they're putting resources into communities to 
connect them to those modest technology capabilities to free 
the data, if you will. And now, if we can start to get folks to 
build innovative games or apps or other programs so that it 
would help people--you know, I might be more interested in 
looking at my neighbors' usage; someone else might be more 
interested in a price signal; one might want to infer a price 
signal, assuming we had a time-of-use pricing deployed. So, 
there could be lots of motivations, and we just want a 
marketplace that can grow off of the raw material----
    Senator Klobuchar. OK.
    Mr. Chopra.--which is the data.
    Senator Klobuchar. Thank you. Anyone aware of what works 
best with consumers to try to get them interested in this and 
how to save money in their own households?
    Ms. Wigle. One of the things----
    Senator Klobuchar. Why----
    Ms. Wigle. If I might. One of the things that we've 
realized is, it's really important to engage consumers as they 
evolve. So, a lot of utilities have done experiments where they 
provide usage information--or energy usage information to 
consumers. And what happens is, it's very, very interesting to 
them for a couple of weeks, and then they lose interest in it.
    So, what we believe is, you actually need to provide 
solutions that can evolve as they are becoming more and more 
mature with regard to their interaction with their usage. So, 
it might start with just understanding it, but then being able 
to take action, set policy, do comparisons, and set goals for 
themselves. It would be really cool to have utility programs 
that assign points when you are hitting your targets, and 
actually introduce----
    Senator Klobuchar. Yes----
    Ms. Wigle.--an element of achievement.
    Senator Klobuchar.--what they told me was just finding out 
how much it costs you if you leave the lights on or if you 
don't leave the lights on----
    Ms. Wigle. Exactly.
    Senator Klobuchar.--in your own home.
    Ms. Wigle. Action oriented.
    Mr. Tuck. So, we are very much involved in projects in 
several states, when we did exactly that. We gave consumers the 
ability to look at their own consumption in isolation and then 
start to share information about themselves and see comparisons 
of other people in 3,000-square-foot homes, and so on.
    Senator Klobuchar. They like to compete with their 
neighbors.
    Mr. Tuck. Yes.
    [Laughter.]
    Mr. Tuck. We found that that was the biggest driver. So, we 
tested----
    Senator Klobuchar. OK.
    Mr. Tuck.--three drivers: saving money, saving the planet, 
and beating your neighbors. And beating your neighbors trumped 
everything else.
    [Laughter.]
    Senator Klobuchar. Of course. I would have guessed it.
    Ms. Winkler. Senator----
    Senator Klobuchar. OK.
    Ms. Winkler. Senator----
    Senator Klobuchar. Yes.
    Ms. Winkler.--I'd just like to add one thing, though. I 
think it's important to recall the issue, also, of split 
incentives. And so that while having--you know, turning your 
energy down when you go to sleep at night or when you're away 
from the home is very important, but a huge amount of saving 
can come from investing in that, as well.
    And we do have the problem that, a lot of cases, the 
capital investment needs to be made by somebody other than 
the----
    Senator Klobuchar. I----
    Ms. Winkler.--party----
    Senator Klobuchar.--understand.
    Ms. Winkler.--that's paying for the energy.
    Senator Klobuchar. OK. And I'm--maybe I'll--you can--we can 
correspond about this. I just want to move on to one other 
topic. And that is e-waste. And I appreciated, Mr. Hesse, what 
you said about the--recycling the cell phones. But, I have a 
bill, actually, the Electronic Device Research and Development 
Act, because we've seen this huge increase--2 billion 
computers, televisions, wireless devices, printers, gaming 
systems, and other devices have been sold since 1980, 
generating 2 million tons of electronic devices. Best Buy has 
worked on this, of getting incentives for people to bring back 
theirs so it can be recycled.
    I guess this one is for Mr. Chopra, just quickly. What do 
you see as the future of this?
    Mr. Chopra. Well it's--there are multiple dimensions. So, 
there are communities where they've built programs, where 
school districts will accept old computers, have the kids learn 
how to refurbish those computers, and then make them available 
to help them close the digital divide. That's not a 
technological innovation as much a sort of an interesting 
programming effort.
    On innovations in materials and design, we continue to see 
research and development, through a number of programs that we 
fund in the National Science Foundation and others, to look at 
next-generation information technologies. We have a 
coordinating program called----
    Senator Klobuchar. Right, and that's what this bill is 
focused on trying to get that research----
    Mr. Chopra. R&D.
    Senator Klobuchar.--going so that we can develop 
technologies that create less waste and can be more easily 
recyclable.
    Mr. Chopra. Well, as always, we'd be keen to work with 
you----
    Senator Klobuchar. OK.
    Mr. Chopra.--on any and all of those ideas.
    Senator Klobuchar. Thank you.
    One last thing, Mr. Hesse, I do appreciate the work that 
Sprint is doing, but do remember, as much as we want to compete 
on green and compete on new technologies, if people are locked 
in on early termination----
    [Laughter.]
    Senator Klobuchar.--you're not going to be able to compete, 
because they're not going to be able to pick another product, 
because of whatever desire they have, if they're locked in with 
an outrageous early termination fee.
    Mr. Hesse. Senator, if I might make a comment on that 
point. Customers have a choice of--they can go prepaid--and 
they have three choices with Sprint. They have Boost, Virgin, 
or Assurance Wireless. And we believe we have the most 
consumer-friendly pro-rated fees in the industry. And, as you 
know, there are significant subsidies that come along with 
these phones, and we don't want customers switching back and 
forth too often, because it just adds to the e-waste problem or 
issue.
    One other thing I will say, what's called--in terms of the 
question, Senator, you asked earlier--one of the advantages of 
this industry is what's called dematerialization. So, I was 
just talking to a few people walking in, they no longer carry 
watches, calculators, alarm clocks, cameras, and other devices 
because they're all included in here. So, that's one of the 
other benefits of the wireless----
    Senator Klobuchar. OK.
    Mr. Hesse.--industry.
    Senator Klobuchar. Very good. But, do remember, you could 
do these fees, as long as they're prorated and as long as they 
are--make sense with the difference between the actual cost and 
the discount. And, as you know, I've been much more focused on 
Verizon's fees lately. So, thank you very much.
    Mr. Hesse. Well noted, Senator.
    [Laughter.]
    The Chairman. Senator DeMint.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. I apologize for 
being late and missing a lot of the testimony, but I am very 
interested in this.
    I won't make you rehash a lot of what you've already talked 
about. But, just on the energy efficiency front of how to use 
technology communication, I'm just curious about the consumer 
demand at this point. What are you seeing in the products 
you're making, the concepts you're discussing? Do you sense 
that consumers, on their own, are looking to buy, to use the 
technologies that are available, and in development? Do you see 
this as something where the market will actually drive more 
innovation and development? Really any of you? What are you 
seeing on the wireless front, Mr. Hesse?
    Mr. Hesse. Well, we have been extremely pleased, Senator, 
with the success of this particular device. But, the--you know, 
the early research, when we launched it, told us that it was 
risky. Consumers, at the end of the day--and in my comments 
earlier, I talked about recycling--if there's a financial 
incentive----
    Senator DeMint. Right.
    Mr. Hesse.--customers are very interested. That really 
drives them. And the key to the success of this phone is that 
we--Senator, is that we cut no corners. It's a full 3G phone, 
full QWERTY, Blue---you know, stereo Bluetooth; it had to have 
all the features and be at the same, or better, price 
performance than the other products on the market. So, our 
challenge is that consumers--when all things are equal, 
consumers will go green. But, if it's more expensive or if the 
consumer needs to give something up, we're still not at the 
point--they're--of course, they're a small segment of the 
consumer base that will be looking for green, but it's still a 
fairly small segment. So----
    Senator DeMint. So, we're at the early adopter stage, 
really, in using a technology to reduce an energy footprint.
    Mr. Hesse. Yes, Senator. But, what I will say is that 
there--we in the industry--and one of the reasons that we've--
we announced, today, these design principles for the 
manufacturers--we have the ability to lead the carriers, the 
manufacturers by--there are a lot of technologies that we could 
choose to deploy that would make devices both perform very well 
and be at a good cost and be greener. So, I think there's an 
opportunity for us just to show more leadership, as well. And 
when you do that, consumers will buy it.
    Senator DeMint. Any other thoughts on----
    Mr. Tuck. Yes, Senator, I'd say that studies have shown 
that there are sections of society that are willing to pay 
quite a reasonable amount of money to put systems into their 
homes in order to make them more efficient, but they are 
dwarfed by the people who aren't. That said, what we're seeing 
is, in our work with partners like GE, what we're able to do is 
create new appliances, where the cost of the new appliance is 
no more than the one that it would replace, and yet it's 
significantly more energy efficient. So, fridges that can talk 
to the grid and decide to make ice at night rather than during 
the day, when there's plenty of wind around, and those kind of 
things, are the kind of appliances where consumers will buy 
them because they consume 30 to 50 percent less energy and 
don't cost any more at the point where they replace their 
appliances. But, it's not going to trigger them to go out and 
swap their existing fridge.
    Senator DeMint. All right.
    Yes.
    Ms. Winkler. I think it's--this also goes back to the issue 
of information. The way it works today, when you get your 
electricity bill--and you see what happened over last month--
you have no idea what the specific actions were that you took 
that generated that. That linkage is nonexistent between your 
behavior and the bill that you get.
    Senator DeMint. Right.
    Ms. Winkler. So, it's going to be the availability of 
information that's going to allow consumers to act on that.
    Senator DeMint. Yes.
    Ms. Wigle. And I would also just add, with regard to 
computers themselves, we see huge interest in energy 
efficiency, particularly in two areas. One is data centers, 
where often it's not the cost of the energy, it's the fact that 
they're running out of power and cooling capacity in a 
facility, so they're looking at having to build a whole new 
data center if they can't get more energy efficient equipment. 
The other is, we are--have been able to realize incredible 
efficiency gains because of battery powered devices and 
optimizing energy efficiency so we maximize battery life. And 
we're able to take those technologies then and apply them to 
other computing platforms, which is a very important area of 
innovation.
    Senator DeMint. That's very helpful.
    Mr. Chopra. I'll just make one observation. Beyond the 
consumer, the enterprises, whether it be government agencies or 
companies, are increasingly incorporating, as part of their 
requirements, energy efficient technology solutions when they 
compete for certain activities. So, more and more of the 
private sector is adopting principles to spur this activity.
    The young lady at the end, on cloud computing, is an 
example. More and more of organizations that are looking at 
modernization in their information technology infrastructure 
are essentially demanding solutions that have that energy 
efficiency as part of the equation.
    Senator DeMint. That's encouraging.
    Again, thank you all for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator DeMint.
    Mr. Tuck, before we sort of wrap up here--a number of you, 
I want to try to clarify a few things. First of all, your 
company, is it highly focused on, or exclusively focused on, 
the relationship between the home and the energy provider? Is 
that the information that your--or----
    Mr. Tuck. Sir, it has been, up until now. We believe that 
that variable pricing is coming to the electricity market, and 
that's going to be a big driver of consumer change. So, 
people's appliances will move. We do intend, this year, to 
market test with our partners, such as Best Buy, models where 
the consumer can buy energy efficiency technology from us, 
independent of the utility, to understand what the likely 
takeup of that technology will be. But, up until now, it's been 
solely through the utility.
    The Chairman. And are you looking at, sort of, home 
management in a home-contained system that would control 
various appliances and different things within the home, or 
not?
    Mr. Tuck. We are, sir. We're working with appliance 
manufacturers to make sure their new appliances are compatible 
with our system and the grid's--the standards that NIST is 
bringing out. But, we're starting by focusing on the 
thermostats. So, the thermostat consumes about 40 percent of 
the energy in a typical home in North America. And we believe 
that, essentially, the thermostat is in the same place that the 
VCR was; nobody knows how to program it. And----
    [Laughter.]
    Mr. Tuck.--and, if we can do to the thermostat what TiVo 
did to the VCR--make it very, very simple and intuitive for 
people to understand it--we can see dramatic savings from that, 
and it will have a significant impact on a homeowner's 
consumption.
    The Chairman. Boy, the simpler you can make it. Menu-
driven.
    Mr. Tuck. Yes.
    The Chairman. It makes a difference.
    Decoupling, I assume, is pretty critical. I mean, if we--
you know, we have this absurdity where the more you--energy you 
use, the more you--you know, we just don't have the right 
incentive in the system. I assume you would all agree that we 
could take a step to try to build the proper incentive into the 
system. Is that correct?
    Mr. Tuck. That is correct, sir, yes. I think that's right. 
I think that the biggest impedance to roll out is the fact that 
utilities don't really have a business model yet, in many 
States, in order to continue to support their shareholders and 
meet the national priorities associated----
    The Chairman. So, if----
    Mr. Tuck.--with them.
    The Chairman.--they could actually earn money by using less 
energy, it would be effective.
    Mr. Tuck. It would be effective, sir, yes.
    The Chairman. Right.
    Ms. Wigle you, in your testimony, talk about energy 
efficiency measures in not only effective, but, in many cases, 
have, quote, ``negative marginal cost,'' meaning they create 
wealth for society overall. Can you just sort of fill that out 
for the Committee a little bit?
    Ms. Wigle. Yes. The observation is, actually, by making the 
investment, we save money. It's--you know, sometimes we use the 
trite expression of ``doing well by doing good.'' But, if you 
look at things like smart buildings, as an example, making that 
up-front investment, if you look holistically at the lifecycle 
of the building, we actually realize economic benefit.
    The Chairman. You know--so, that strikes me--I mean, the 
level--McKinsey & Company has done an analysis--I think they 
call it the carbon cost abatement curve--and they begin----
    Ms. Wigle. That's right.
    The Chairman.--with the least, sort of, thing to do--a 
light bulb, whatever--and they progress through all the 
complicated things that we can consider. The first 20 or 30 
years of the reduction of emissions in the United States 
actually pay for themselves.
    Ms. Wigle. That's right.
    The Chairman. They're free, because of the efficiencies 
that you get when you put them in place. I know companies, 
Hewlett Packard, IBM, Cisco Systems--I mean, you could run a 
list--Dupont, Dow Chemical--all of them have reduced their 
emissions already--10, 20, 30, 50 percent, in some cases--and 
they're making money doing it.
    Ms. Wigle. And growing.
    The Chairman. And growing. And growing globally. Why are 
we--have such trouble getting people to understand this? I 
mean, here we are, falling behind China, India, South Korea, 
Germany, France, other countries. We're--we need to kick our 
economy into gear, and we have this--sort of, excuse me, but 
kind of knee- jerk, somewhat ideological resistance to the 
notion that moving in this direction with the right incentive 
is somehow going to upset the apple cart. Do any of you believe 
it is? Why are we having this problem, in your judgment, 
getting people to understand the economic benefit of what so 
many companies are understanding for themselves?
    Mr. Tuck. I think, at the residential level, people don't 
have the information, sir. I think that's the challenge.
    The Chairman. Well, what about at the corporate level? I'm 
talking----
    Mr. Tuck. Right.
    The Chairman.--smart corporate leaders. I mean, there's a 
reason Lou Hay, down at Florida Power & Light, and there's a 
reason that, you know, General Electric, Jeff Immelt, is moving 
in these directions, right? Why don't more people see----
    I'll give you an example. You know, because I am New 
England trained, I was walking around this building during the 
snowstorm when nobody was here. The escalators were turning 24/
7, just burning. Nobody was on them. You go to Europe, you go 
to Asia, that doesn't happen. They have an infrared light, it 
shuts off when nobody's on it, saves energy. We are the most 
profligate energy wasters in world, are we not? Why, still?
    Ms. Wigle. Well, I think part it comes to norms and 
behavior. We talked a little bit about that in the setting of 
the home. I mean, today the societal norms don't value energy 
efficiency. And that's something that we need to work on over 
time, to showcase companies--and I would actually put Intel in 
the list of companies you listed who have embraced energy 
efficiency, reducing----
    The Chairman. Intel----
    Ms. Wigle.--our----
    The Chairman.--was one, correct.
    Ms. Wigle.--our CO<INF>2</INF> emissions, our footprint 
overall while we grow, and setting those goals. I mentioned in 
my testimony, both verbal and written, you know, the idea of 
laying out a national roadmap. You know, I think that the 
government could do some things to put the framework in place, 
put goals in place. One of the things that we did with the 
nonprofit that I lead--Climate Savers Computing Initiative--is, 
we took a goal, of reducing CO<INF>2</INF> emissions from 
computing by very specific amount of 54 million tons, and then 
we're measuring ourselves against that. You know, we need to do 
that across some sectors, and make those--the progress toward 
those goals visible. I think that could help a lot.
    The Chairman. Now, if you----
    Ms. Wigle. But----
    The Chairman.--have done that, and you had met a goal that 
had been set by the government, let's say, of what you ought to 
reduce, and you'd more than met the goal, would you like to be 
able to sell your surplus to someone else who needs it?
    Ms. Wigle. Of course.
    The Chairman. Would any of you want to refuse that option?
    [No Response.]
    The Chairman. Makes sense, doesn't it? I think it's called 
capitalism.
    Yes. Ms.----
    Ms. Winkler. Well, I just want to add--you know, you said 
that much energy efficiency is free--I want to add that it's 
often actually a driver of productivity. So, a very simple case 
that was mentioned earlier by Mr. Chopra about--if we talk 
about teleworking or virtual meetings, for example--that 
actually not only, you know, saves money and saves emissions 
and saves energy, but also gives us more time to be more 
productive.
    I do think that there's an element of leadership, that we 
want to highlight the companies here. I also believe that EMC 
is a leader in this space and would like--highlight them 
further, but also the Federal Government can do, as well. If we 
look at the data centers, for example, the home of some 1,100 
data centers, there's a lot of----
    Voice. 1,200.
    Ms. Winkler.--opportunity to stand up and show--1,200, 
excuse me----
    [Laughter.]
    Ms. Winkler.--wow, it grew a hundred--and stand up and 
really show----
    The Chairman. Let----
    Ms. Winkler.--through----
    The Chairman.--me ask you a question. How long has EMC had 
a chief sustainability officer?
    Ms. Winkler. Eighteen months. But, we have had very 
aggressive energy efficiency programs in place since--pretty 
much since 1997.
    The Chairman. Well, I'm a--I congratulate you on it. I 
mean, I don't think that, a number of years ago, we'd have had 
a company with a chief sustainability officer. I think it's a 
terrific concept.
    Share with us a little bit more how EMC is providing either 
the clean energy jobs or information that's helping people to 
reduce their energy use?
    Ms. Winkler. Well, the way we look at our impact or our 
role in the world, we look first in our own operation, 
obviously. So, reducing energy consumption, reducing emissions 
from everything we do within the facility, and, beyond, that 
through our entire value chain, so working with our suppliers. 
But, where we believe, and where we know, we have the biggest 
impact is helping our customers reduce energy consumption in 
their data centers and beyond, in their businesses.
    We're actually investing, more than we ever have 
historically, in research and development in the areas, for 
example, of cloud computing--in particular, of cloud computing. 
Which is really----
    The Chairman. Explain cloud----
    Ms. Winkler.--the next----
    The Chairman.--computing to the layperson.
    Ms. Winkler. Cloud computing is, effectively, where you 
have pooled resources so that you can very dynamically access 
the resources that are needed and then make them available for 
other use. Cloud computing can occur within a data center or 
within an IT infrastructure, such as the Federal IT 
infrastructure, that allows you to share those resources when 
they're needed, but still retain the control, still retain the 
security, still retain the trust that people expect to have 
from their own data center. And through our investment in that, 
we are in R&D, which is largely through engineers. We have a 
huge, and growing, engineering population, over 8,000 of whom 
are, in fact, in our home State, and as well in our services 
organization, which is working with our customers to help them 
then get energy efficiency in their data centers and their 
businesses, and turn those investments to growing their 
businesses instead of paying for electricity.
    The Chairman. Mr. Hesse, share with us a sense of how 
Fortune 500 companies and large Federal agencies are, sort of, 
keeping up with the demand for information services today, or 
for--as a provider of information services, what's your sense 
of the demand curve?
    Mr. Hesse. Well, the demand curve for--if we were to use 
data usage on wireless networks as a proxy for the demand for 
information services, because--when we would talk about 
information to one person, it's information; to another person, 
it might be entertainment. But, it is growing at an 
unprecedented rate, and it will continue to grow at even a 
faster and faster rate. And that's why we're working with the 
FCC and the government, as well as, you know, the marketplace 
to bring 4G services, fourth generation.
    And actually, you know, if you take a look at wireless 
technology--and we're talking about where the U.S. is with 
respect to the rest of world in energy efficiency--in wireless 
technology--you know, wireless was invented in the United 
States. In what was called first generation or analog, we were 
the leaders. In second generation, which is digital, which made 
text messaging possible, Europe became the leader. In third 
generation, which is, kind of, high-speed data--not super fast, 
not quite as fast as your cable modem, but fast enough--that's 
3G, that's kind of the market today--Asia, in essence, became 
the first and the leader. In 4G, the U.S. has the opportunity 
to be first again.
    And in terms of the utilization of mobile technology, not 
only for commuting, but GPS, location-based services, all sorts 
of information that can be transferred to these devices--the 
reading of the meters--smart meters, smart grid could be done 
over wireless networks so you don't need technicians, you don't 
need truck rolls. The opportunity for this industry to use 
information, and the information that will be increasing and go 
over wireless networks, to improve our carbon footprint is 
enormous.
    The Chairman. You mentioned 3G/4G. I thought I might ask 
you to play referee and tell us whether Luke Wilson is telling 
the truth about the----
    [Laughing.]
    Mr. Hesse. I'm sorry, I missed that----
    [Laughing.]
    Mr. Hesse.--the end of it.
    Mr. Chopra. The ads that Verizon----
    Mr. Hesse. Oh.
    The Chairman. You can't have missed the ad.
    Mr. Hesse. Yes, I love them. We're just ducking underneath 
the fire of that one.
    [Laughter.]
    The Chairman. Senator DeMint, do you have any more 
questions?
    Senator DeMint. No, sir.
    The Chairman. We're going to leave the record open for--til 
the end of the week, in case other colleagues want to try to 
submit some questions.
    Is there any--let me ask you one last question before I do 
that. What are--give me, sort of, your one, two, three--or one 
or two or whatever it is--priority that we have to do soon--and 
sooner rather than later--to empower this transformation? What 
do we need to do? What are the government policies that would 
make the greatest differences to each of you?
    Why don't we leave you, Mr. Chopra, to respond at the end. 
Why don't you begin, Ms. Winkler?
    Ms. Winkler. OK. Certainly I would say the promotion of 
broadband, which you spoke about at the beginning. We really 
need to extend broadband, which is in addition to wireless and 
infrastructure that's going enable all of this. And 
particularly--and I think Ms. Wigle brought this up, which is 
building a national roadmap or national strategy so that we can 
educate the rest of the Federal Government, as well as private 
industry, on how they can harness energy efficiency.
    The Chairman. OK.
    Ms. Wigle. Yes. I would echo those two, and maybe elaborate 
the second one a little bit, in terms of having clear metrics, 
being able to measure the progress that we're making, and 
making that very visible, because that goes to changing 
attitudes and behaviors.
    The Chairman. Mr. Tuck.
    Mr. Tuck. Open access to energy information, a blueprint 
for utilities to make money in an energy efficient world, and 
an encouragement of time-of-use-type pricing, variable pricing, 
as a model, going forward.
    The Chairman. Mr. Hesse.
    Mr. Hesse. Mr. Chairman, I would echo broadband as being 
important. The second, I give the government credit for, in the 
Economic Recovery Act, which I mentioned earlier, providing 
grants--the Department of Energy--in areas that will allow us 
to mitigate the very large investment cost to--and research 
cost--associated with researching and deploying new forms of 
energy efficient technology. So, the DOE grants have been very 
helpful.
    Mr. Chopra. Mr. Chairman----
    The Chairman. Do you want respond to any of those?
    Mr. Chopra. Just to the--all of the ideas that were 
referenced were very, very bullish on opportunities. And we 
clearly look forward to working with you on establishing the 
policy framework to unlock this really huge job creation 
potential, investment potential. And so, we look forward----
    The Chairman. Well, we----
    Mr. Chopra.--to working you, sir.
    The Chairman.--really appreciate that. And we sure want to 
do it. I think we're very committed to that, and the 
Committee's going to work hard to see how we can accelerate it, 
and work with the Administration to do that.
    A huge future out there, and a lot competition, a lot of 
hungry people in other countries, so we need to get our act 
together. And I hope we will, rapidly.
    We're very grateful to all of you for taking time to be 
here today. Thank you very, very much.
    We stand adjourned.
    [Whereupon, at 11:26 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
